<html>
<title> - ACTING SECRETARY OF HOMELAND SECURITY KEVIN K. MCALEENAN</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                            ACTING SECRETARY
                          OF HOMELAND SECURITY
                           KEVIN K. MCALEENAN

=======================================================================


                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          OVERSIGHT AND REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                             JULY 18, 2019
                               __________

                           Serial No. 116-49
                              __________

      Printed for the use of the Committee on Oversight and Reform


                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                  
                  
                  Available on: http://www.govinfo.gov
                     http://www.oversight.house.gov
                        http://www.docs.house.gov


                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
37-933 PDF                WASHINGTON : 2019  


                   COMMITTEE ON OVERSIGHT AND REFORM

                 ELIJAH E. CUMMINGS, Maryland, Chairman

Carolyn B. Maloney, New York         Jim Jordan, Ohio, Ranking Minority 
Eleanor Holmes Norton, District of       Member
    Columbia                         Paul A. Gosar, Arizona
Wm. Lacy Clay, Missouri              Virginia Foxx, North Carolina
Stephen F. Lynch, Massachusetts      Thomas Massie, Kentucky
Jim Cooper, Tennessee                Mark Meadows, North Carolina
Gerald E. Connolly, Virginia         Jody B. Hice, Georgia
Raja Krishnamoorthi, Illinois        Glenn Grothman, Wisconsin
Jamie Raskin, Maryland               James Comer, Kentucky
Harley Rouda, California             Michael Cloud, Texas
Katie Hill, California               Bob Gibbs, Ohio
Debbie Wasserman Schultz, Florida    Ralph Norman, South Carolina
John P. Sarbanes, Maryland           Clay Higgins, Louisiana
Peter Welch, Vermont                 Chip Roy, Texas
Jackie Speier, California            Carol D. Miller, West Virginia
Robin L. Kelly, Illinois             Mark E. Green, Tennessee
Mark DeSaulnier, California          Kelly Armstrong, North Dakota
Brenda L. Lawrence, Michigan         W. Gregory Steube, Florida
Stacey E. Plaskett, Virgin Islands   Frank Keller, Pennsylvania
Ro Khanna, California
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
                  Russ Anello, Chief Oversight Counsel
                          Amy Stratton, Clerk

               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051



                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on July 18, 2019....................................     1

                                Witness

The Honorable Kevin K. McAleenan, Acting Secretary of Homeland 
  Security
    Oral Statement...............................................     5

Written opening statements and the witness' written statement are 
  available at the U.S. House of Representatives Repository: 
  https://docs.house.gov.

                           INDEX OF DOCUMENTS

                              ----------                              

The documents listed below are available at: https://
  docs.house.gov.

  * Letter to McAleenan from Reps. Garcia and Krishnamoorthi; 
  submitted by Rep. Krishnamoorthi.

  * Questions for the Record: from Chairman Cummings, Rep. 
  Wasserman Schultz, Rep. Khanna, and Rep. DeSaulnier.

  * Questions for the Record: response from the U.S. Department 
  of Homeland Security.

  * Rep. Gerry Connolly's Statement for the Record.

 
                            ACTING SECRETARY
                          OF HOMELAND SECURITY
                           KEVIN K. MCALEENAN

                              ----------                              


                        Thursday, July 18, 2019

                   House of Representatives
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The committee met, pursuant to notice, at 10:05 a.m., in 
room 2154, Rayburn House Office Building, Hon. Elijah Cummings 
(chairman of the committee) presiding.
    Present: Representatives Cummings, Maloney, Norton, Cooper, 
Connolly, Krishnamoorthi, Raskin, Rouda, Hill, Wasserman 
Schultz, Sarbanes, Welch, Speier, Kelly, DeSaulnier, Plaskett, 
Khanna, Gomez, Ocasio-Cortez, Tlaib, Jordan, Gosar, Massie, 
Meadows, Hice, Grothman, Comer, Cloud, Gibbs, Higgins, Norman, 
Roy, Miller, Green, Armstrong, Steube, and Keller.
    Also present: Representative Escobar.
    Chairman Cummings. The committee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time. We are convening to hear 
the testimony of Acting Secretary of Homeland Security Kevin 
McAleenan.
    I want to briefly address the spectators. I already saw two 
signs being held up, so I want to address you. We welcome you, 
and we respect your right to be here. We also ask in turn that 
you respect--we ask for your respect as we proceed with the 
business of this committee today. It is the intention of this 
committee to proceed with this hearing without disruptions. If 
a disruption occurs, listen up, a Capitol Police officer will 
go up to the individual, instruct that they cease 
demonstrations. If the individual does cease, no action will be 
taken. However, if the person does not cease, you will be asked 
to leave. We are grateful for your presence here today and your 
cooperation, and we want to move this hearing along quickly. 
Every time I have to stop and the police have to address issues 
like that, that just slows us up.
    I would also remind all Members to avoid engaging in any 
adverse personal references. I now recognize myself for five 
minutes.
    Today, the committee is examining the Trump 
administration's inhumane policy of separating children from 
their parents at the border and the dangerous conditions in 
which they are being held. Last Friday, we issued a staff 
report summarizing data on children who were separated from 
their families by the Trump administration. This report was 
based on information that we forced the Trump administration to 
produce to the committee pursuant to bipartisan subpoenas after 
they refused to provide it voluntarily for months.
    The report found that the administration's child separation 
policy was more harmful, more traumatic, and more chaotic than 
previously known. The report also describes specific case 
studies of 10 children who were separated by the Trump 
administration, including several who were under the age of 
two. We sent our report to the Department last week, and we 
will be asking our witness about these children this morning.
    Today, we will hear from Acting Secretary of Homeland 
Security Kevin McAleenan. He was originally invited to testify 
at our hearing last week, but he asked for that appearance to 
be postponed until today. We accommodated his request, and we 
thank you for being here today.
    Mr. McAleenan is one of the key architects of the Trump 
administration's child separation policy. Last April, he sent a 
memo to Secretary Nielsen explaining how they could, and I 
quote, direct the separation of parents or legal guardians and 
minors held in immigration detention, end of quote. He also 
recommended going forward with this policy, and she agreed. 
They separated thousands and thousands of children from their 
parents under this policy until public outrage and a Federal 
court forced them to stop.
    Mr. McAleenan and other senior administration officials 
admitted that one of their purposes of separating children from 
their families was to deter immigrants and asylum seekers. 
General Kelly said this--and Attorney General Sessions said 
this, and Mr. McAleenan admitted as much in an interview last 
June when he said, and I quote, the intent, unquote, of the 
policy to, and I quote, the policy to dissuade crossing between 
ports of entry, end of quote.
    Tragically, under Mr. McAleenan's leadership, the Trump 
administration failed to track separated children and families 
so they could be reunited. Mr. McAleenan has claimed that the 
administration, and I quote, kept very careful records when the 
relationships between parents and children. But that is not 
accurate. Our committee has now obtained data, under subpoena, 
showing a chaotic system in which children and parents were 
repeatedly moved to multiple facilities and which parents were 
repeatedly deported without any idea of where their children 
were.
    Our findings are corroborated by multiple reports from the 
independent inspector general and the Government Accountability 
Office, which concluded that the Trump administration made no 
serious effort to track separated children and had no plan to 
reunify them.
    Finally, while Mr. McAleenan has acknowledged overcrowding 
at the detention centers, he has claimed publicly that the 
reports of filthy and dangerous conditions are, quote, 
unsubstantiated, end of quote. This is simply not accurate. 
Last week, we heard testimony from the IGs that substantiated 
these reports in a graphic way, and they provided photographic 
evidence as well.
    The administration wants to blame Democrats for this 
crisis, but it is the Trump administration's own policies that 
are causing these problems. It was the Trump administration 
that implemented the, quote, zero tolerance policy, end of 
quote, separated thousands of children, and increased the 
number of people in detention. It was the Trump administration 
that canceled effective policies from the last administration 
that reduced unnecessary detentions. It was the Trump 
administration that shut down the family case management 
program in which social workers helped migrant families find 
attorneys and navigate the court system with a 99-percent 
success rate for attending court appearances and check-ins with 
ICE. It was the Trump administration that ended the Central 
American Minors Program, which allowed children fleeing Central 
American countries with a relative in the United States to 
apply for asylum from their home countries.
    These were all policy decisions made by the Trump 
administration. They all increased the number of people being 
held and unnecessarily detained, and they all contributed to 
the conditions we are now witnessing. The damage the Trump 
administration has inflicted and is continuing to inflict will 
impact these children for the rest of their lives. As I've 
said, when we're dealing with children, it's not the deed; it's 
the memory. It is the memory that will haunt them until they 
die. Today's hearing is one more step in our committee's effort 
to determine the scope of this damage and begin to address it.
    With that, I yield to the distinguished ranking member, Mr. 
Jordan.
    Mr. Jordan. The President says there's a crisis, asks for 
$4.5 billion. The Democrats said it's fake, it's contrived, 
it's manufactured, it's not a real crisis. Then the real crisis 
gets even worse, and what do the Democrats do? They blame the 
President of the United States, and they blame the hard-working 
people who work for Mr. McAleenan on the border, when everyone 
knows what has to be done. Everyone knows this. You've got to 
fix the asylum law. You've got to fix the Flores decision. 
You've got to build a border security wall.
    Frankly, what would also help is if folks on the left would 
quit saying some of the crazy things they're saying that I 
think incentivize more people to come and create this crisis 
that everyone acknowledged a long, long time ago, except 
Democrats in Congress.
    I want to welcome our witness today, Secretary McAleenan, 
and thank him for his service to our Nation at DHS both during 
the Obama Administration and the Trump administration. There's 
been a lot of talk from Democrats on this committee about the 
border crisis, and I hope that Secretary McAleenan will offer 
some facts--facts--and real perspective learned from his years 
of serving our country and helping secure our border.
    Last week, this committee held a hearing entitled ``Kids in 
Cages.'' The next day, Judiciary Committee Chairman Nadler 
accused Customs and Border Patrol of committing, quote, 
negligent homicide. The chairman of the House Judiciary 
Committee, the storied history of that committee, told the 
people who work for this individual, who work for Secretary 
McAleenan, quote, negligent homicide. And just yesterday, he 
said another thing. He said CBP was engaged in torture.
    This rhetoric is wrong. It's despicable and does nothing to 
fix the problem. After months of calling this a fake crisis, 
Democrats have now changed their tune. Make no mistake. The 
Democrats have only changed their tune because the facts simply 
cannot be ignored any more. In Fiscal Year 2019, more than 
688,000 illegal aliens, including nearly 133,000 in May 2019 
alone, were apprehended between ports of entry along the 
southwest border, an increase of approximately 80,000 just 
since October 2018. And while historically most immigrants were 
single adult males, 72 percent of all border enforcement 
actions in the last month were related to unaccompanied alien 
children and family units.
    So what do Democrats do when they have to acknowledge a 
problem that doesn't align with their politics? They look to 
someone. They look for someone to blame. Who else but the 
President of the United States and the hard-working men and 
women who work tirelessly every day trying to secure our 
border.
    The comments from Democrats in Congress I think only serve 
to demean the public service of our brave Border Patrol 
employees and frankly--and this is important--to spark 
unnecessary outrage. Think about what we've heard from them: 
Abolish ICE. Abolish DHS, the entire Department. Walls are 
immoral, the Speaker of the House said, even though there's a 
wall in her state. Non-citizens should be able to vote. 
Taxpayers should finance healthcare for all illegals. 
Concentration camps. They call detention facilities 
concentration camps.
    Earlier this week, a self-proclaimed member of Antifa 
showed up at an ICE detention center outside of Seattle, set 
cars on fire, and attempted to burn down the building. In his 
written manifesto, this Antifa member wrote that he felt it was 
necessary to take action against these, quote, concentration 
camps. Not one single so-called cage has been constructed by 
the Trump administration. Not one.
    During the Presidency of Barack Obama, we didn't see 
outrage from the Democrats then. We didn't see prominent 
Democrat Members of Congress condemning the, quote, 
concentration camps and, quote, torture then.
    Again, President Trump has not built a single cage. The 
cages you see in the news and on Twitter were constructed by 
President Obama's administration. In fact, the only thing the 
Trump administration has used chain-link fence for is one 
temporary facility through which immigrants pass when they 
initially come and they're getting screened. The detention 
facilities that the Trump administration built are all air-
conditioned, have fresh water and supplies, and folks trained 
to administer healthcare and those supplies. You would never 
know that from listening to the Democrats.
    After months of the administration highlighting the crisis 
at the border and making urgent calls for more funding, it 
wasn't until just before July 4 that House Democrats finally 
agreed to pass the $4.6 billion emergency border funding bill 
to provide some resources needed at the border. And despite the 
size and scope of the crisis, some Democrats still choose not 
to support this bill, choosing instead to play politics with 
the border rather than work on the solutions that we all know 
need to happen.
    Fabricating stories of cruelty and besmirching the hard-
working civil servants protecting the border and providing 
humanitarian assistance does nothing to help solve the problem, 
and putting a Band-Aid over the border crisis does not fix the 
root causes.
    If Democrats are serious, if they're serious about solving 
the border crisis, they must address, as I said before, the 
Flores settlement agreement, asylum loopholes, and the other 
laws and court decisions that incentivize aliens to make the 
dangerous journey to the United States. Most of all, they must 
stop obstructing the border security wall. This is one of the 
greatest challenges of our time, and, frankly, it's getting 
worse by the day. I look forward to hearing from Secretary 
McAleenan. As always, we stand ready to work with our Democrat 
colleagues to address the root causes, the real causes of this 
crisis at the southern Border.
    Mr. Chairman, I yield back.
    Chairman Cummings. Thank you very much.
    Before we can move forward, let me say to the committee I 
want to, first of all, thank Mr. Meadows for working hard with 
us to make this hearing happen. I really appreciate that very 
much.
    The other thing is that we will go all the way up until the 
call of the vote, which is going to be at approximately 10:45, 
and then we will come back. We will come back as soon after--I 
think we have three votes--as soon after that as we possibly 
can, but look at your iPhones to see exactly what--I'll let the 
staff know exactly the time. But I guarantee you, it will be as 
soon after that as we can possibly make it.
    With that, now I would like to welcome our witness, the 
Honorable Kevin McAleenan, Acting Secretary of the Department 
of Homeland Security. If you would please rise and raise your 
right hand. I will begin to swear you in. Do you swear or 
affirm that the testimony you are about to give is the truth, 
the whole truth, and nothing but the truth, so help you God?
    Let the record show that the witness answered in the 
affirmative.
    Thank you. You may be seated.
    Secretary, the microphones are very sensitive, so please 
speak directly into them.
    Without objection, your written statement will be made a 
part of the record.
    With that, Mr. Secretary, you are now recognized to give an 
oral presentation of your testimony.

STATEMENT OF THE HONORABLE KEVIN K. MCALEENAN, ACTING SECRETARY 
                      OF HOMELAND SECURITY

    Secretary McAleenan. Thank you, Mr. Chairman, Ranking 
Member Jordan, and members of the committee. I appreciate the 
opportunity to appear before you today to discuss the border 
security and humanitarian crisis, our efforts to mitigate it, 
and the continued support we need from Congress to address the 
underlying causes. I also intend to provide a much-needed 
account of the extraordinary humanitarian actions the men and 
women of the Department of Homeland Security and especially 
U.S. Customs and Border Protection and the United States Border 
Patrol have taken this year to protect migrants in our custody 
while securing our border and enforcing our Nation's 
immigration laws.
    As I have testified and warned publicly, dozens of time 
this year and last, we are facing an unprecedented crisis at 
the border. U.S. Customs and Border Protection has apprehended 
or encountered, as we sit here today, over 800,000 migrants 
crossing our border from Mexico since October 1, over 90 
percent of whom crossed illegally between ports of entry. Over 
450,000 of these apprehensions and encounters were members of 
family units, and over 80,000 were unaccompanied children. 
Combined, that means over 300,000 children have entered our 
custody since October 1. That's almost as many as the total 
apprehensions in Fiscal Year 2017. These numbers are 
staggering, unprecedented, and challenged and overwhelmed every 
aspect of our border and immigration enforcement system, and 
we've been warning about and asking for congressional action to 
address this crisis for well over a year.
    I first publicly referred to the southwest border in a 
state of crisis a year ago yesterday. Since that time, I and 
CPB leaders have warned of the border security and humanitarian 
challenges in more than 100 briefings and meetings on The Hill, 
more than 15 official congressional hearings, more than 55 
congressional delegations to the southwest border, three major 
press conferences, and more than 50 television appearances.
    On March 27 of this year, I went to El Paso sector and 
declared that the breaking point in our immigration system had 
arrived and that CBP was facing unprecedented humanitarian 
challenges. On June 10, nearly 40 days after we asked Congress 
for emergency funding in the same week that the DHS inspector 
general was inspecting border facilities, I was explicit about 
the seriousness of the situation at the border on CNN, and I 
went well beyond the inspector general's statements. I said our 
facilities are overcrowded. No American should be comfortable 
with children in a police station for days on end. It is not an 
appropriate setting for kids. It took another two and a half 
weeks for Congress to vote on the emergency supplemental.
    Despite the scale of the challenge we face and the failure 
to enact legislation that would have prevented and could still 
end this crisis, DHS has made significant strides in its 
efforts to secure the border and to better protect the health 
and safety of migrants in our custody. Since January 2019, the 
DHS team has delivered over 6 million meals, conducted 400,000 
medical health interviews, and completed more than 80,000 
medical assessments for individuals in CBP custody. We've taken 
more than 21,000 sick or injured migrants to hospitals and 
conducted medical transportation or stood hospital watch for 
over a quarter of a million hours.
    With support from the U.S. Coast Guard, Public Health 
Service Commission Corps, and expanded contracts, we now have 
over 200 medical professionals embedded in border facilities, 
screening migrants upon arrival and providing critical triage 
capabilities, a tenfold increase from January 1. Combined with 
our 2,300 agents and officers who are trained emergency medical 
technicians and paramedics, I am confident that no law 
enforcement agency in the world is providing more critical 
life-saving care or medical support than U.S. Customs and 
Border Protection.
    On the facilities front, with humanitarian funding we 
requested in the Fiscal Year 2019 budget and received finally 
in the supplemental, CBP professionals have constructed, 
outfitted, and staffed four new facilities to enhance the 
conditions in which individuals are held while in custody with 
two more anticipated by the end of July. These facilities are 
targeted at reducing overcrowding and improving conditions at 
the border.
    More recently, two critical efforts are starting to make an 
impact, and we are seeing progress in reducing border flows and 
lowering in-custody numbers for the first time this fiscal 
year, thanks to President Trump's direct engagement when he 
entered into an agreement with Mexico in early June to address 
the migration flows that is making a dramatic impact, a 28 
percent reduction in border crossings in June.
    The other key factor allowing us to make progress in the 
care and custody of migrants at the border is the receipt three 
weeks ago of the emergency supplemental requested by the 
administration on May 1. These funds are being directly and 
immediately applied to create temporary facilities to reduce 
overcrowding and improve conditions for all demographics at the 
border, expand medical care, provide more hot meals, improve 
transportation, and ensure adequate supplies at all border 
stations and ports of entry. These efforts have reduced in-
custody numbers at the border from a high of almost 20,000 in 
June to under 10,000 yesterday afternoon.
    For unaccompanied children, Health and Human Services now 
has adequate bed space. We've reduced from 2,700 kids at the 
border to under 350 yesterday afternoon, with an average of 
fewer than 35 hours in CBP custody. And throughout this period, 
the men and women of DHS have served with vigilance and 
compassion.
    But make no mistake. The border flows and the custody 
situation remain beyond crisis levels. We are still seeing 
2,500 crossings a day, mostly families. To continue to mitigate 
this, we're pursuing a multifaceted strategy that addresses the 
regional flows of migration at their source by expanding our 
partnership efforts with Central American governments to attack 
criminal organizations and improve security while fostering 
economic development and growth.
    Fundamentally, however, a durable solution to this crisis 
lies with Congress. With targeted changes to our immigration 
laws that we need to enhance the integrity of our immigration 
system and eliminate the gaps in our legal framework that 
incentivize families and children to take this dangerous 
journey.
    I will work with any Member willing to discuss the problem 
and solutions and invite you to see the situation for yourself 
at the border. If I could indulge one more minute, Mr. 
Chairman.
    Chairman Cummings. You may. Please.
    Secretary McAleenan. Part of the stated purpose for this 
hearing is for the committee to receive testimony regarding 
increased immigration prosecutions last year under the so-
called zero tolerance problem and how the prosecution of adults 
crossing the border in violation of our immigration laws 
impacted families and children. This initiative resulted in an 
increase in prosecutions for violations of section 1325 of the 
Immigration and Nationality Act from 20 percent to 50 percent 
and included all amenable adults, even those crossing our 
border unlawfully with children. These prosecutions, as all 
criminal prosecutions do, resulted in temporary separations of 
parents and children.
    This practice lasted six weeks, ended 13 months ago, and 
has been the subject of ongoing litigation, multiple 
congressional hearings, committee and inspector general 
reports, and hundreds of media stories. I have personally 
testified in a number of these hearings and in several media 
appearances and answered questions about it. I have 
acknowledged that this initiative, while well intended, lost 
the public trust and that President Trump was right to end it.
    Under current practice, covered by both executive and court 
orders along with operational guidance, separations of parents 
and guardians and the children they cross with are rare and are 
undertaken in the best interest and safety of and welfare of 
the child.
    In closing, I feel compelled to address current public 
rhetoric surrounding the ongoing border security and 
humanitarian crisis. The incendiary and overwrought attacks on 
the men and women securing our border and enforcing immigration 
laws on the interior are unwarranted and damaging. The 
demonization of law enforcement professionals, U.S. Border 
Patrol agents, CBP and ICE officers from all racial and ethnic 
backgrounds, from all faiths and callings who have chosen a 
career about protecting others must stop. These false and 
overheated attacks are not helping to resolve the crisis. 
Indeed, they diminish the public's understanding and cloud its 
perception of what is happening.
    We need, Mr. Chairman, to regain our balance. We need to 
understand what is incentivizing and driving migrants to put 
themselves in the hands of dangerous smugglers and embark on 
this perilous journey to our border in order to have a real 
discussion on how to solve the problem. I hope that this 
hearing today can be a step in the right direction. Thank you.
    Chairman Cummings. Thank you very much.
    Before we go to Mr. Raskin, can we move those signs, 
please? Thank you. The audience is trying to see. Thank you 
very much. All the members, by the way, have what the signs 
say, so that's the most important thing.
    Mr. Raskin.
    Mr. Raskin. Mr. Chairman, thank you very much.
    Mr. Secretary, the policy of separating children from their 
parents has shocked the conscience of our Nation, so I want to 
go to the point that you closed with. You testified in the 
Senate that child separations are now, quote, extraordinarily 
rare and, quote, for the safety of the child. You told the 
Senate Judiciary Committee, quote, we're talking about examples 
of a parent wanted for murder, a parent who has had a stroke 
and needs to be taken to the emergency room.
    But the facts that we've learned on the ground seem 
contrary to that reassuring picture. Last week, HHS IG official 
Ann Maxwell told us that her office saw cases in which the 
Department of Homeland Security separated children based on 
their parents' criminal history, including, for example, a 
prior charge of marijuana possession. Mr. Secretary, does a 
parent's prior charge for marijuana possession justify taking 
his or her child away?
    Secretary McAleenan. So I want to start with the rare 
portion of this. Fewer than a thousand juveniles have been 
separated from their parents crossing the border this fiscal 
year. That's with 450,000 crossings of family units. This is 
carefully governed by policy and by court order that needs to 
have a criminal background or issue as you referenced, 
potential communicable disease or medical emergency, or risk of 
abuse or neglect from the parent to the child. This is in the 
interest of the child. These are carefully governed, it's 
overseen by a supervisor, and those decisions are made. 
Criminal history, yes, is a factor if there's an extraditable 
warrant or a prosecution for another offense.
    Mr. Raskin. Okay. So do you think that marijuana--a prior 
charge of marijuana possession justifies taking children away 
from the parent?
    Secretary McAleenan. It depends on the totality of the 
individual case. It's kind of hard to say in a hypothetical.
    Mr. Raskin. If there were no other factors.
    Secretary McAleenan. I would have to look at the kind of 
case that you reference.
    Mr. Raskin. According to recently released HHS information 
on about 3,000 child separation cases, the large majority of 
them are labeled as taking place based on a parent's criminal 
history, which could include prosecution, charges, or mere 
allegations of past crimes based on unsubstantiated information 
shared by foreign governments. So I want to be clear about 
this. Are separations taking place based on unsubstantiated 
evidence regarding suspected criminal backgrounds without 
criminal convictions?
    Secretary McAleenan. So, when we have an allegation of a 
serious crime that we're concerned about, especially if it's 
from a U.S. jurisdiction, that would be cause to consider 
separation of that case. We also partner with foreign 
governments where we work closely with law enforcement in 
Central America and in Mexico, and when we have referrals of 
criminal activity, a conviction, an indictment or gang 
affiliation that is substantiated based on our partnership and 
our understanding of their mechanisms, their information 
collection procedures, we do take that into consideration into 
the safety of the child.
    Mr. Raskin. Well, let me take a case kind of like that. 
According to the Houston Chronicle, there was a 19-year-old 
Salvadoran woman identified as Maria who had been abused by 
adult gang members for years. She was present at a gang fight 
and was taken into custody by the police but was never charged 
with anything, but this interaction was enough for Border 
agents to imprison her and to take away her two-year-old son 
for more than five months. Do you think that was appropriate?
    Secretary McAleenan. Again, I'd have to look at the 
specific factors in that case. I'm not sure that the Houston 
Chronicle has the same information that was provided by our 
foreign government partner, and that's, again, governed careful 
by policy with discretion at the supervisor level in the field 
for making those decisions.
    Mr. Raskin. Okay. We've seen evidence to suggest that three 
sisters were taken away from their father in November 2018 
allegedly because he was HIV positive. Is that a proper basis 
upon which to remove children from their parents?
    Secretary McAleenan. Again, you're referencing a number of 
specific cases that I do not have in front of me. I'm not sure 
if that was the only factor involved in that decision.
    Mr. Raskin. But let's assume it was. I mean, just 
hypothetically speaking, then, would you remove for that?
    Secretary McAleenan. The simple fact of being HIV positive 
does not sound like that would meet the standard. There could 
be other complications medically that would have required a 
temporary separation.
    Mr. Raskin. Do you have written civil standards that you 
use in order to determine whether children should be removed 
from their parents?
    Secretary McAleenan. We do have policy and operational 
guidance consistent with the executive order and court order 
that's been sent out to the field and has been implemented.
    Mr. Raskin. Can you make that available to us?
    Secretary McAleenan. Of course.
    Mr. Raskin. Last week, Jennifer Nagda of the Young Center 
testified before this committee. Her group is appointed by the 
Department of HHS to advocate for vulnerable children, 
including 120 recently separated children. On average, these 
kids, she testified, were seven years old, and they were in 
custody for 115 days before seeing their parents. According to 
Ms. Nagda, the center found that separation was contrary to the 
best interests of the child in nearly every single case.
    Do you commit to this committee today and to Congress to 
have a policy where children will only be removed from their 
parents if there is a compelling reason to advance the child's 
own health and safety?
    Secretary McAleenan. So we also have compelling reasons for 
criminal prosecutions that are also of relevant interest, as 
understood by the court and expressed by the executive order, 
but I'd be happy to work with this committee to evaluate our 
procedures on separation, to hear Ms. Nagda's testimony about 
her concerns, and to consider ongoing how we can improve what 
we do.
    Mr. Raskin. I appreciate that.
    Thank you, Mr. Chairman. I yield back.
    Chairman Cummings. Thank you very much.
    Mr. Cloud.
    Mr. Cloud. Thanks, Chairman, and thank you for being here, 
Secretary.
    In talking about the situation at the border, the President 
said there may be some narrow circumstances in which there is a 
humanitarian or refugee status that a family might be eligible 
for. If that were the case, it would be better for them to 
apply in country rather than to make the various dangerous 
journey all the way up to Texas to make those same claims.
    He went on to say, but I also emphasize to my friends here 
that we have to deter a continuing influx of children, putting 
themselves at great risk, and families who are putting their 
children at great risk, and so I emphasize that, within a legal 
framework and a humanitarian framework and proper due process, 
children who do not have proper claims and families with 
children who do not have proper claims at some point will be 
subject to repatriation to their home countries.
    Going on, I say this is not because we lack compassion but 
because in addition to being a Nation of immigrants, we're also 
a Nation of laws. And if you have a disorderly and dangerous 
process of migration, that not only puts the children 
themselves at risk but also calls into question the legal 
immigration process of those who are properly applying and 
trying to enter our country.
    Would you agree generally with this assessment?
    Secretary McAleenan. I didn't hear you say who made that 
assessment, but yes, from what you read, I would agree with 
that.
    Mr. Cloud. It was President Obama five years ago. He went 
on to say that there had been a lot of press conferences about 
this, referring about this and the time for--``we need action 
and less talk'' is what he said, and you mentioned all the 
different meetings that you've been in. He also went on to 
explain how the economic conditions, wanting a better life, did 
not fit in that narrow definition of asylum in that same press 
conference.
    Could you speak briefly to the magnet that is drawing 
migrants here?
    Secretary McAleenan. Sure. And just one other comment on 
that. As the chairman raised in his opening statement, the 
Central American Minors Program ended. That was a program that 
provided a categorical parole for certain minors in Central 
America. This administration has proposed in January and in a 
letter from the OMB Acting Director to Congress on the budget 
deal, and again working with Chairman Graham in the Senate 
Judiciary side on his legislation, technical assistance that 
would allow for a similar approach, applying for asylum, 
especially for unaccompanied children, in [the] country closer 
to where they are because they don't--we don't want them in the 
hands of the smugglers coming to the border.
    So, on the incentives, Ranking Member Jordan laid it out. 
The main incentive has been the fact that families all over the 
region, advertised by smugglers, fully internalized--we saw it 
on CBS News last night. A woman all the way from Venezuela said 
she knew if she brought her child, she would be released. It 
has been a fact that the Flores settlement does not allow us to 
do what we were able to do under President Obama and Secretary 
Johnson, which is detain families together through an 
expeditious, fair immigration proceeding. It took about 40 to 
50 days on average. That resulted in a clear immigration 
decision from a judge, either a repatriation if there wasn't a 
valid immigration claim or a determination that that family 
would be allowed to stay. We're not able to do that anymore. 
That's why we see so many families coming. It's a direct 
response to that gap in the framework.
    Mr. Cloud. Right. Now, definitely this is Congress' job to 
act. It's our responsibility. We're supposed to fix it. So 
nothing is meant to--what I say is meant to take us away from 
that responsibility, but we sent you a letter a couple of 
months ago highlighting eight actions the administration could 
take. I wanted to touch on a couple of them in the time that I 
have left.
    One of them was training agents to do credible fear 
interviews. We got your response. You said, I think, by the end 
of this month, we'll have 60 trained over the last couple 
months, but that is the limit in that this is a pilot foreman. 
Now, the idea of training agents to do credible fear interviews 
is we wouldn't have a two-year process. We could really, you 
know, solve this right at the beginning as opposed to, you 
know, this mass influx that we don't know what to do with these 
people. We could solve this almost at the point of entry.
    Why are we not doing more? I mean, there's thousands and 
thousands of agents at the border who could be trained to do 
this, and we're limiting this pilot program to 60.
    Secretary McAleenan. So, first of all, agree strongly with 
the principle that we should be addressing those asylum claims 
at the border, doing a credible fear assessment as soon as 
possible, and that training immigration officers, Border Patrol 
agents, ICRO, asylum officers, all technically immigration 
officers under the statute, on those standards could help us 
increase the capacity and volume. What we're trying to do is 
balance it against the continuing crisis. The fact that we've 
got 40 to 60 percent of our agents doing processing care, 
transport, hospital watch for migrants, on and on, on down the 
line, so----
    Mr. Cloud. I only have 10 more seconds if I could ask one 
more question real quick.
    Secretary McAleenan. Yes. Please.
    Mr. Cloud. Work authorization. Could you explain the 
process of who all is getting work visas, why they're getting 
work visas in the context of how many people that are crossing 
our border----
    Secretary McAleenan. Right.
    Mr. Cloud [continuing]. end up actually have a legitimate 
claim to be here.
    Secretary McAleenan. So, in the context, in that context, 
we're seeing is, for asylum claims, 10 to 20 percent actually 
getting asylum at the end of the court process. Unfortunately, 
that takes years to happen. So we are seeing employment 
authorizations being issued by CIS. The Acting Director is 
looking again at that policy and seeing if we're applying it 
appropriately given the context you offered.
    Chairman Cummings. Thank you.
    Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman.
    And welcome, Mr. Acting Secretary. I just want to read you 
a quote: There can be no keener revelation of a society's soul 
than the way in which it treats children.
    That was a quote from the late Nelson Mandela. Would you 
agree with that quote, the sentiments of that quote, Mr. 
McAleenan?
    Secretary McAleenan. I have tremendous respect for the late 
Nelson Mandela, and that's a powerful quote.
    Mr. Connolly. Are you a dad?
    Secretary McAleenan. Yes, Congressman.
    Mr. Connolly. You've got children. I do too. I have one. 
Mr. Secretary, last Friday, the committee released a staff 
report on the child separation policy that summarized the data 
produced by you and other agencies under committee subpoenas as 
referenced by the chairman. We provided you with a copy of that 
report last week, and we agreed to delay this hearing in the 
anticipation that you would review that report. That report 
included 10 case studies, not a hundred, not a thousand, and we 
identified specific children at your Department's suggestion by 
number rather than by name, though we had the names. I want to 
ask you about one of those cases. I assume you looked at the 
report.
    Secretary McAleenan. I've reviewed the report, but I'm not 
prepared to discuss in detail specific cases at this time.
    Mr. Connolly. Well, I am. There's a child identified in the 
report as Child No. 2. We have additional copies of the report, 
obviously, if you need to refer to them.
    The records we obtained from you and other agencies show 
that this child is a baby boy from Honduras who was just eight 
months old when he arrived with his dad at the Texas border in 
May of last year. He was eight months old. He was taken away 
from his father and sent to a facility in Arizona. He then 
spent six months in that facility. He had his first birthday 
there. He spent half of his life without his dad, in the 
custody of U.S. officials. Meanwhile, his dad was transported 
to three different ICE facilities and then ultimately deported 
after two months.
    Mr. Acting Secretary, why was a child of eight months held 
for six months while his dad was deported two months later?
    Secretary McAleenan. So, Congressman, if the case your 
referred to happened in May 2018----
    Mr. Connolly. Yes, sir.
    Secretary McAleenan [continuing]. do you have the date? Do 
you have the date?
    Mr. Connolly. The actual date in May?
    Secretary McAleenan. Yes.
    Mr. Connolly. I can get it to you.
    Secretary McAleenan. Okay. Again, we'd be happy to go back 
over these specific cases with you and members of your staff, 
as appropriate. But what I can tell you is that when we 
implemented the zero tolerance protocols to increase 
prosecution of amenable adults, including those arriving with 
children, I specifically directed and the Chief of the Border 
Patrol echoed that that would not include parents traveling 
with children under five.
    So, when we've gone back and looked at the cases, and there 
were a few dozen separations during that timeframe, we've 
determined that there were other reasons that would comply with 
the current executive order or court order for separations of 
children under five that occurred during the zero tolerance 
period.
    Mr. Connolly. So----
    Secretary McAleenan. If this was in that period, I would 
imagine----
    Mr. Connolly. All right. I'm running out of time. I just 
want to clarify what you said. Forgive me for interrupting, but 
I want to make sure I understand what you said. Normally, 
you're saying, your policy would not have allowed this. 
Something must have happened that made an exception to your 
normal practice. Is that what I understand?
    Secretary McAleenan. Basically, yes. I mean, this was 
during the zero tolerance period if it was after May 7 or so. 
If it was before then, it would have been under historical 
approaches. In either case, there must have been another issue 
with the adult or a concern that we wanted to follow-up on.
    Mr. Connolly. Let's say there was----
    Secretary McAleenan. Okay.
    Mr. Connolly [continuing]. in theory. Isn't there something 
wrong with deporting the dad and keeping the infant? I mean, 
don't we have a tracking system in place----
    Secretary McAleenan. Sure.
    Mr. Connolly [continuing]. that would have caught that and 
said, hey, we've got to link these two up? It's a dad like 
you----
    Secretary McAleenan. Right.
    Mr. Connolly [continuing]. with his child, a baby. Eight 
months old.
    Secretary McAleenan. By ICE policy, if they're going to 
remove an adult who arrived with a child, it is up to that 
adult to choose whether the child should be repatriated with 
them.
    Mr. Connolly. I've got one more question for you.
    On the Erin Burnett show, the Acting Director of USCIS, a 
Virginian, Mr. Cuccinelli, actually blamed the father for the 
death of himself and his daughter crossing the Rio Grande. It 
turns out, of course, that Oscar Alberto Martinez Ramirez, who 
left El Salvador on April 3, actually, his daughter had jumped 
into the river, and he tried to rescue her. Mr. Cuccinelli 
said, and I'll end on this, that father didn't want to wait to 
go into the asylum process so he decided to cross the river, 
and, therefore, it was his fault. Do you share that sentiment? 
Is that the philosophy of your Department?
    Secretary McAleenan. I think what happened to Oscar and 
Valeria is a tragedy. I think they deserve better. They deserve 
a legal framework in our country that doesn't incentivize 
unlawful crossing, and they deserve an opportunity to apply for 
protections, if they warrant them, as close to home as 
possible.
    Mr. Connolly. And you're a dad. I'm a dad. Just one final 
point, Mr. Chairman.
    Chairman Cummings. The gentleman's time has expired. I'm 
sorry.
    Mr. Connolly. You would have jumped in the river to help 
your daughter, too, right?
    Chairman Cummings. You may answer the question.
    Secretary McAleenan. Of course, Congressman.
    Mr. Connolly. Thank you.
    Chairman Cummings. Mrs. Miller.
    Mrs. Miller. Thank you, Mr. Chairman, and Ranking Member 
Jordan, and thank you very much for being here today.
    In April, I took a trip with my colleagues to Guatemala to 
see firsthand the results of human trafficking and abuse of 
women that occur in the country. I saw with my own eyes the 
devastating impacts that human trafficking has on the young 
girls, and I know that this same trafficking is occurring at 
the border, our border. We need real solutions to act swiftly 
to address the root cause of this issue.
    Mr. McAleenan, I have a lot of questions, so try to keep 
your answers short enough that I can get to them all.
    Nobody wants children to be separated from their parents, 
and we all want to ensure that children are treated with 
dignity and housed comfortably. What are the factors a Border 
Patrol agent uses, what he goes through in order to assess 
these illegal family units when they arrive?
    Secretary McAleenan. So, by and large, the vast, vast 
majority, well over 99 percent, 98 percent of children that 
arrive with parents are kept together in the process. The 
Border Patrol agent or CBP officer encountering that family 
will undertake the analysis under the criteria and the 
President's executive order from June 20 of 2018 and the Ms. L. 
court order, which are consistent with prior policy that it's 
in the interest of the safety and welfare of the child. And 
cases are, again, prosecution for criminal offense or serious 
criminal history, abuse or neglect, expressed by that parent or 
the child where we have a concern or a medical emergency. Those 
are the main indicators of a potential separation.
    Mrs. Miller. How many children's lives have been saved by 
the Border Patrol?
    Secretary McAleenan. So I think that's a really important 
question. We make over 4,000 rescues a year. Already, in the 
first nine months of this fiscal year, the U.S. Border Patrol 
has made 3,800 rescues. Their rescues on the river have gone up 
tenfold. We're seeing agents almost every day dive into the 
water with their full equipment on to try to rescue families 
crossing the water. It's high water this time of the year, and 
it's very dangerous, so 3,800 rescues so far this year.
    Mrs. Miller. Thank you. I'm glad to hear that.
    What is the average size of migrant groups that the Border 
Patrol is encountering between the ports of entry, and how is 
that impacting the Border Patrol's operations?
    Secretary McAleenan. This year has been unlike any other 
we've seen in our history with well over 150 large groups of 
more than 100 migrants crossing together. We peaked with a 
group of 1,036 migrants crossing as one group, all from Central 
America; 900 plus of them were family units. But since Mexico 
has started to do their interdiction operations and address the 
transportation networks on their highways, we've seen a 
dramatic drop. We've only had four large groups since the start 
of Mexico's operation and zero in July today.
    Mrs. Miller. Wonderful. How is the policy for separating 
children from their parents, what do you use except in the zero 
tolerance? What is different in this administration and past 
administrations?
    Secretary McAleenan. Right now, our policy is identical to 
what we were doing before the zero tolerance practice that 
ended over a year ago.
    Mrs. Miller. The same.
    Secretary McAleenan. Yes.
    Mrs. Miller. Okay. In Fiscal Year 2019, the Department of 
Homeland Security identified nearly 5,500 migrants presenting 
as family units that turned out to be fraudulent. Why would 
adults use children to help them cross the border?
    Secretary McAleenan. Unfortunately, we see that all too 
often now. It's been a big focus this year to try to identify 
those adults that are bringing children with them that are not 
their own to try to take advantage of what they perceive is a 
loophole in our law that will allow them to be released into 
the United States. We've had egregious cases including a 51-
year-old man who bought a six-month-old child for $80 in 
Guatemala, and he admitted that when he confronted with the DNA 
test by a Homeland Security investigation's agent conducting a 
pilot at one of our border stations.
    Mrs. Miller. How has the Flores settlement impeded our 
ability to enforce the law?
    Secretary McAleenan. It's prevented us from getting 
immigration results from judges that can be effectuated.
    Mrs. Miller. At what point would a child be separated from 
the adult they arrived with?
    Secretary McAleenan. At what point?
    Mrs. Miller. Uh-huh.
    Secretary McAleenan. It would depend on when an issue was 
identified. For instance, we unfortunately had a 15-year-old 
girl a few months ago tell us on her second day in custody that 
her father had raped her the night before they crossed the 
river, and so she was immediately separated and taken care of 
and sent to Health and Human Services as a result.
    Mrs. Miller. So it's for safety, isn't it?
    Secretary McAleenan. Correct.
    Mrs. Miller. If a family unit is housed together, how are 
they housed? Are they in a room with other families?
    Secretary McAleenan. Yes. We separate families generally by 
demographic and gender, so male-head-of-household families with 
other male-head-of-household families. The same for female-
head-of-household families. The age of the kids is also a 
factor. We try to just keep people in the safest groups 
possible during the short time they're at the border.
    Mrs. Miller. What if one of the----
    Chairman Cummings. The gentlelady's time has expired.
    Mr. Krishnamoorthi.
    Mrs. Miller. Okay. Thank you.
    Mr. Krishnamoorthi. Thank you, Mr. Chairman.
    Thank you, Secretary, Acting Secretary, for coming in.
    Secretary McAleenan, two weeks ago on July 3, my colleague, 
Congressman Chuy Garcia and I wrote you a letter requesting 
that you provide a plan within 14 days for how you will utilize 
the $1.34 billion in emergency supplemental funding provided to 
DHS to address the border situation. I have not received a 
response.
    Mr. Chairman, without objection, I'd like to enter this 
letter into the record.
    Chairman Cummings. No objection, so ordered.
    Mr. Krishnamoorthi. Mr. McAleenan, has DHS begun receiving 
the emergency humanitarian funds provided by Congress and 
signed by the President on July 1?
    Secretary McAleenan. Of course. And I can tell you that we 
were already acting in hopes of receiving that funding before 
the supplemental was enacted.
    Mr. Krishnamoorthi. What is the status of the plan for 
using the funding as Congress intended, and I presume there is 
a plan.
    Secretary McAleenan. Sure. Of course. About half of the 
funding is dedicated to enhanced facilities, temporary 
facilities at the border where we can provide additional space, 
reduce overcrowding, and improve the care of those that are in 
the custody of CBP during their short stay at the border. We've 
already erected four temporary soft-sided facilities, two in 
south Texas, two in El Paso, and by the end of this month, 
we'll have another 4,500 spaces online and an additional set of 
temporary facilities in those two locations as well.
    Mr. Krishnamoorthi. So half of the money is allocated for 
that purpose? What's the other half?
    Secretary McAleenan. So the rest of it covers a range of 
issues from paying for the surge force of agents and officers 
that's down there helping our Border Patrol agents with the 
humanitarian mission, their temporary deployment. It adds to 
our medical contracts so that we can provide embedded medical 
professionals, certified medical professionals, in our 
facilities. It augments our ability to pay for supplies and 
food. I referenced the 6 million meals that we provided folks 
in our custody since.
    Mr. Krishnamoorthi. Just to be clear--sorry. Just to be 
clear, all of this money is being used for the humanitarian 
efforts----
    Secretary McAleenan. That's correct.
    Mr. Krishnamoorthi [continuing]. and not for any interior 
ICE deportation efforts or other enforcement actions, correct?
    Secretary McAleenan. That's how it was appropriated, but I 
want to be clear, Congressman, that that creates a challenge 
because we asked for funding for ICE single adult beds, and it 
was not granted. So those single adults are waiting at the 
border for placement with ICE----
    Mr. Krishnamoorthi. I understand. I understand, sir. But 
just to be clear, that is how the money was funded, so that's 
how we expect it to be used.
    Secretary McAleenan. That's correct.
    Mr. Krishnamoorthi. And for purposes of our letter, Chuy 
Garcia's and my letter, we expect a response, how the money is 
going to be spent and on what timeline. It has to be 
transparent so we can actually measure your efforts against 
your plan. Do I have your assurance we'll receive that plan.
    Secretary McAleenan. We're transparent through our 
oversight on how we're spending the money that's programmed by 
Congress, and we'll continue to be.
    Mr. Krishnamoorthi. Do we have your assurance that you'll 
respond to the letter with the information requested?
    Secretary McAleenan. We'll respond to all appropriate 
requests from Congress.
    Mr. Krishnamoorthi. Will you respond to our letter on July 
3?
    Secretary McAleenan. I'd be happy to come talk to you about 
the plan. I haven't seen the letter. I'll talk to my staff 
about where it is in the process.
    Mr. Krishnamoorthi. Okay. I expect a response, sir. Mr. 
McAleenan, you served as CPB Commissioner prior to your current 
role at the helm of DHS. According to CPB, 70 current or former 
employees are now under investigation for posting racist, 
sexist, and other inappropriate comments about migrants and 
Members of Congress to a quote/unquote secret Facebook group 
for Border Patrol agents with over 9,500 numbers. Are you aware 
of the secret group, sir?
    Secretary McAleenan. I've been made aware, yes.
    Mr. Krishnamoorthi. Were you a member of that group?
    Secretary McAleenan. No.
    Mr. Krishnamoorthi. Is Mark Morgan a current or former 
member of that group?
    Secretary McAleenan. I don't know, but I don't believe so.
    Mr. Krishnamoorthi. Sir, what are the efforts to 
investigate those particular comments of the members of that 
group?
    Secretary McAleenan. Yes. So our--CBP's Office of 
Professional Responsibility initiated an investigation within 
hours of those allegations coming to light. As you noted, 
they've already placed a number of individuals under 
investigation. They put several on administrative duties. 
They've issued cease-and-desist letters, and they're moving 
very quickly to hold people accountable for conduct that 
doesn't meet our standards.
    Mr. Krishnamoorthi. When will we receive a report on the 
results of that investigation?
    Secretary McAleenan. So, again, it's proceeding very 
aggressively. I would say probably this month or early next 
month, we'll be able to update on the result of those 
investigations.
    Mr. Krishnamoorthi. Okay. We find this conduct extremely 
troubling and expect to receive that report. Would you be 
willing to come back in to discuss that report?
    Secretary McAleenan. Certainly, or CBP will come and brief 
it appropriately.
    Mr. Krishnamoorthi. Sir, the last question, which is this: 
The zero tolerance policy that was adopted, how do you define 
zero tolerance under this administration with regard to 
immigration policies?
    Secretary McAleenan. Consistent with the President's 
executive order from January 25, 2017, that we would no longer 
have categorical exceptions to enforcement of immigration law, 
one; and, two, under the Attorney General's April 6 letter, 
which was to have all 1325 unlawful entry cases be submitted--
that was the goal--submitted for prosecution by DOJ. During----
    Chairman Cummings. I thought you were finished. Please 
finish.
    Secretary McAleenan. During zero tolerance, the 
prosecutions increased from about 20 percent of amenable adults 
to 50 percent of amenable adults by eliminating that 
categorical exception.
    Chairman Cummings. Thank you very much.
    Mr. Roy.
    Mr. Roy. Thank you, Mr. Chairman. A quick question in 
response to my colleague's questioning just now. Is it true 
that zero dollars are included in the supplemental that just 
passed for ICE detention for single or family units?
    Secretary McAleenan. That's correct.
    Mr. Roy. Right. And isn't that part of problem?
    Secretary McAleenan. It is.
    Mr. Roy. Right. And wasn't it purposeful by my Democratic 
colleagues?
    Secretary McAleenan. I assume that they did not want to 
fund ICE beds, but what I'm trying to emphasize is the impact 
it has on adults waiting at the border.
    Mr. Roy. But it's not just a humanitarian crisis, is it? We 
have a crisis of national security, overstretched resources, 
endangerment of American citizens, endangerment of Texas 
communities, and endangerment of migrants along the journey at 
the hands of cartels. Is it not?
    Secretary McAleenan. It's also a border security crisis.
    Mr. Roy. The truth is not--is that dangerous cartels, 
particularly the Gulf cartel, Reynosa faction, the CDN of Los 
Zetas, the Sinaloas are massively profiting by moving people 
through Mexico to the United States, correct?
    Secretary McAleenan. Yes. Three billion-plus a year.
    Mr. Roy. The poster behind me is a poster that shows 
prices, prices for moving people through Mexico and to the 
United States. So do you agree that it is true that certain 
dangerous cartels have an entire business model designed to 
exploit American laws for profit, to move human beings for 
profit, and that they charge money per person as depicted in 
this chart?
    Secretary McAleenan. Yes. I met a family from Honduras 
yesterday that explained they paid $10,000 to come across.
    Mr. Roy. Do you agree that they use children as a ticket 
for profit to come to the United States?
    Secretary McAleenan. Yes.
    Mr. Roy. Now, let's look at the numbers quickly. How many 
people have come across the border and sought to be detained 
themselves, sought detention, or were apprehended? That number 
from October 1 to present, it's north of 700,000, correct?
    Secretary McAleenan. It's north of 500,000. The single 
adults are not, by and large, turning themselves in.
    Mr. Roy. Okay.
    Secretary McAleenan. They're trying to evade capture, and 
embedded in that group, unfortunately, are gang members, 
criminals, and hardened smugglers.
    Mr. Roy. Then, if you include those that had been 
apprehended, that didn't seek to be turned over, it's well over 
700,000, correct?
    Secretary McAleenan. Well, combined, we're over 800,000.
    Mr. Roy. So then there are those hundreds of thousands of 
people who crossed our border in that time who were not 
apprehended, correct?
    Secretary McAleenan. There are, yes.
    Mr. Roy. And is it not true that Border Patrol is 
overwhelmed? Is it not true that Border Patrol is dealing with 
housing migrants rather than policing the border?
    Secretary McAleenan. When you have 40 percent of your 
agents doing housing, transportation, and care, the border is 
less secure.
    Mr. Roy. Of those 800,000 you just said, how many were 
UACs, around 80,000?
    Secretary McAleenan. Yes.
    Mr. Roy. How many are single adults, 250,000 or so?
    Secretary McAleenan. Correct.
    Mr. Roy. And of those, are they mostly male?
    Secretary McAleenan. The single adults are predominantly 
male, yes.
    Mr. Roy. How many were family units, over 400,000?
    Secretary McAleenan. 450,000.
    Mr. Roy. Of those, roughly 200,000 each of adults and 
children, about 50/50?
    Secretary McAleenan. We're seeing about 1.1 because people 
know that a child is a very valuable way to get into the U.S., 
so they're only bringing one child with them at a time now.
    Mr. Roy. Are most of those family units now dispersed 
throughout the United States?
    Secretary McAleenan. Yes.
    Mr. Roy. For the most part, are these family units claiming 
asylum, or are they largely using a child as a ticket for catch 
and release?
    Secretary McAleenan. The latter. We do see a number of 
asylum claims, but it's actually gone down this year from the 
peak of about 30 percent of those encounters claiming asylum.
    Mr. Roy. Is it true that the issue of UACs could be largely 
solved with a fix to TVPRA and that this could be done on a 
single piece of paper?
    Secretary McAleenan. Yes.
    Mr. Roy. Is it true that we could largely solve the problem 
of family units rushing our border and then being caught and 
released by addressing the Flores settlement, an extension of 
that settlement by a Ninth Circuit judge, on essentially a 
single piece of paper?
    Secretary McAleenan. Yes. That was our experience in 2014 
and 2015.
    Mr. Roy. Is it true that, with respect to the family unit 
problem, representing the majority of the surge across our 
border, that the Obama Administration supported a solution to 
the Flores problem, and that, again, we could solve it on a 
single piece of paper?
    Secretary McAleenan. Yes.
    Mr. Roy. Is it true that the Obama Administration asked for 
$762 million for ICE to deal with the unaccompanied alien 
children problem in 2014, the surge where children were riding 
on the top of train cars?
    Secretary McAleenan. Yes. We all asked for additional 
appropriations at DHS to deal with the unaccompanied child 
surge, yes.
    Mr. Roy. And does that amount seem correct, the $762 
million?
    Secretary McAleenan. That sounds like it's in the ballpark.
    Mr. Roy. That is what I'm told.
    Is it true that the supplemental just passed only provided 
$200 million for ICE in response to a much larger crisis today 
and that it came with significant restrictions on how it can be 
used?
    Secretary McAleenan. That's correct.
    Mr. Roy. To repeat again, zero dollars, purposely zero 
dollars for ICE beds and ICE detention. Is that correct?
    Secretary McAleenan. That's correct.
    Mr. Roy. Do you anticipate that the Democrat-led House of 
Representatives will bring any of these solutions that could be 
done on one piece of paper to the floor for a vote this week?
    Secretary McAleenan. Probably not this week, but I'm sure 
hopeful on a shared set of facts, we can talk about solutions.
    Mr. Roy. So for Flores, TVPRA, or money for ICE, the things 
that we know would solve the problem and largely address the 
crisis, you are not anticipating that that will be brought to 
the floor of the House of Representatives this next week before 
we adjourn for the August recess?
    Secretary McAleenan. I don't see any legislative action 
that would make that possible at this time.
    Mr. Roy. Which begs the question why? And I'll tell you 
why. It is because my Democrat colleagues don't give a damn 
about our national security or the migrants coming here, and 
they prefer to use children as political props.
    Thank you. No more questions.
    Chairman Cummings. Thank you very much.
    And as I said a little bit earlier when I opened, I think 
we need to be careful about the motives of our Members, and 
that goes to both sides.
    With that, we now will hear from Ms. Speier.
    Ms. Speier. Mr. Chairman, thank you.
    Chairman Cummings. Hold on. The bells have rung. Ms. Speier 
will be the last person, and then we will go into recess, and 
as I said a little bit earlier, we will let you know exactly. 
We have three votes, I understand, and then--is it three? 
Three, possibly four votes. So I'm just letting you know.
    Ms. Speier.
    Ms. Speier. Thank you, Mr. Chairman. Thank you, Director. I 
was with 16 other colleagues at the border at McAllen and 
Brownsville last weekend. It was my second trip to the border. 
Have you been there, sir?
    Secretary McAleenan. Several dozen times.
    Ms. Speier. All right. So this is familiar to you, seeing 
families, mothers and children caged with mylar blankets.
    Secretary McAleenan. Yes.
    Ms. Speier. That's familiar to you. And is this familiar to 
you, too? This is what we saw at the processing center: 40 men 
in a cell that could probably, under normal circumstances, 
accommodate maybe five. This man is putting his fingers up 
showing that he has been there for 40 days and 40 nights 
without a shower and without being able to brush his teeth. And 
I confirmed that with the Border Patrol officers there.
    Ms. Speier. This would not be allowed as a kennel for dogs, 
yet that's how we're housing them. And you know the sally port 
is filled with yet another six, four, five hundred men as well. 
It's unacceptable and it has to change. We don't treat human 
beings like that.
    Now, I'm going to ask you to----
    Secretary McAleenan. Can I respond to those comments?
    Ms. Speier. You can after I ask you this question. I want 
to ask you about a case study that is in our report that you've 
had the benefit of looking at. You've had it since last Friday. 
It's child No. 3.
    He was 19 months old when he arrived from Honduras at the 
southern border in Texas with his father in April 2018. He was 
taken from his father and transported to foster care in New 
York before being released to a sponsor six months later.
    During the time, the toddler's father was sent to ICE 
detention facilities in Texas, New Jersey, and New York before 
being released.
    Why was this 19-month old baby taken from his father?
    Secretary McAleenan. So, first, on the conditions. There's 
no one in this room that has warned more often or more 
stridently about the overcrowding and the conditions in our 
facilities than I have. So I'm very concerned about them. I've 
been asking Congress for help.
    We did not get the money for single-adult beds that would 
allow us to move those adults out of our custody from Congress. 
So I just want to make that point very clear.
    Second, on this case, as I said to Congressman Connolly, 
I'd be happy to follow-up on specific cases. I don't have the 
details on this case today. But what I explained as well is 
that----
    Ms. Speier. Okay. Here's the problem. You've had this 
report since last Friday. You should have come prepared to 
answer these particular cases. So I'm wondering why you aren't 
able to do so.
    Secretary McAleenan. So I've reviewed this report, and I've 
explained to Congressman Connolly our policy. I directed and 
the chief of the Border Patrol implemented when we--during the 
period of zero tolerance that we would not separate--we would 
not prosecute an adult that would result in a separation from 
their child if the child was under five years old, okay.
    So if that happened, it was likely due to another issue in 
that adult's history or in the situation with that child that 
resulted in the separation. So I want to be clear on that.
    Ms. Speier. So we don't know then if the toddler was ever 
reunited with the father?
    Secretary McAleenan. We do. I mean, the Ms. L.--we have 
lots of different ways to confirm this. So the Ms. L. court is 
reporting biweekly the results of their own class and the 
reunifications of that class. We also have the ability in our 
system to see which adults cross with which child and respond 
to that. So we can do a very specific response on this 
particular case.
    Ms. Speier. Okay. So you will provide us with a specific--
--
    Secretary McAleenan. Yes.
    Ms. Speier [continuing]. response to the questions that we 
provide to you?
    Secretary McAleenan. Yes.
    Ms. Speier. Let me ask you this. One of the children that 
we met was an eight-year-old. His mother was dead. His father 
was elderly. He was brought here by his 25-year-old sister and 
was separated at the border.
    There was another young 16-year-old with an infant that has 
a mother in New York, but is going to not be reunited with her 
sponsor for as much as 60 days.
    Some of these cases are being handled in a way that doesn't 
recognize, if you're a family unit, the family unit should be 
retained. And I want you to look at ways of improving the 
system.
    A 25-year-old sister and an eight-year-old child is a 
family unit and they should not have been separated. This child 
now is homeless, parentless, and has lost his sibling. We can't 
treat people like this.
    Secretary McAleenan. May I respond?
    Ms. Speier. Yes.
    Secretary McAleenan. So we've offered, both through the 
Senate and House Judiciary Committees in their consideration of 
legislation, a modification to the Trafficking Victims 
Protection Reauthorization Act that requires by law that a 
child arriving without a parent or guardian be considered 
unaccompanied, and the only option that we have at the border 
in that case is to transfer that child to Health and Human 
Services, where they make the decision on the best placement 
with a sponsor.
    We would like and be willing to discuss the opportunity to 
have more flexibility to adjust to the kind of cases you just 
referenced.
    Ms. Speier. All right. I want to work with you on that.
    Chairman Cummings. The committee stands in recess.
    And to the members, we will reconvene a half an hour after 
the last vote begins, okay, on the floor.
    We stand in recess.
    [Recess.]
    Chairman Cummings. We will reconvene the hearing. And as 
soon as our witness gets seated, we will have Mr. Keller.
    Thank you very much.
    Mr. Keller.
    Mr. Keller. Thank you, Mr. Chair.
    And thank you, Ranking Member Jordan.
    Thank you, Mr. Secretary, for being here today.
    I know we've been discussing the tragedy at our southern 
border and how our public officials are handling that and 
dealing with it, and I want to applaud those people that work 
every day on our border, and thank you for your service and 
them.
    It's a tragedy. As a father and a grandfather of two little 
girls, it's a tragedy when children suffer under bad 
circumstances. And we've talked about ways that we might 
improve what's happening at our southern border so at intake 
facilities and so forth they aren't overcrowded.
    There were some references made to the Flores decision and 
also TVPRA, which is the Trafficking Victims Protection 
Reauthorization Act. Those were items, I think, Mr. Roy brought 
up that you said would be helpful in making sure we can stop 
the crisis at our southern border. Is that correct?
    Secretary McAleenan. That is correct.
    Mr. Keller. Are there other items that you see that we 
could, as Congress, put in place to help you and the people of 
the United States that work for Customs and Border Patrol and 
DHS to help do their jobs?
    Secretary McAleenan. Sure. We've talked about three 
targeted changes that are most important to addressing the 
crisis and the flows coming to our border. You just mentioned 
two of them: modifying the Flores settlement to allow us to 
detain families together in an appropriate setting through 
their immigration proceeding; amending the TVPRA to allow 
repatriation of children to noncontiguous countries. But we've 
also added the opportunity for children to apply for asylum 
from Central America as a potential balance in the legislation 
we've been discussing.
    But the third change is a modification of the front end of 
the asylum process, what's called the credible fear standard. 
Currently, it's a possibility of proving an asylum case. We've 
recommended a change to make it more likely than not that you 
can prove an asylum case, and we think that would allow for 
valid claims to come through, but better align that front-end 
test with the ultimate decision by an immigration judge.
    Mr. Keller. Okay. If Congress were to fix those items the 
way that you're recommending, how long would it take you to 
implement policy and changes to improve the conditions and make 
sure that there's not such a crisis at our border?
    Secretary McAleenan. Well, I think there would be a fairly 
immediate impact on the flow coming to our border.
    We have historical context for this. In 2014, when 
Secretary Johnson made the decision to detain family units 
through their immigration proceedings, we had a 90 percent 
drop-off in family units crossing the border within a matter of 
weeks from those first flights arriving in Central America.
    So I think we'll see a quick change in the flow when the 
loophole is closed.
    Mr. Keller. Okay. Thank you for that.
    I guess I would want to say then, if Congress would do, and 
if the Democrat leadership would bring up these changes and 
allow us to give you the tools to do your job, we would stop 
seeing children and families being trafficked up to our 
southern border.
    Secretary McAleenan. I truly believe that would be the 
case. That's been our prior experience, when we're allowed to 
get immigration results that can be effectuated, and really we 
need people to be in custody, adjudicated at the border for 
that to happen effectively. We've seen a dramatic drop in the 
flow.
    Mr. Keller. Thank you, sir.
    And I guess I would just say this for my colleagues. I 
would encourage you to--encourage my colleagues to encourage 
the Speaker and the Democrat leadership to not only do these 
things, but then fix the other areas of our immigration 
policies that are broken so that we don't have this crisis at 
our border.
    If we truly care about children and families and what's 
happening, it's our duty to give you the tools to do your job. 
I'm committed to make sure we help that happen, and I just 
would encourage my colleagues on both sides of the aisle to 
push toward that resolution.
    I yield back.
    Chairman Cummings. Mr. Sarbanes.
    Mr. Sarbanes. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here.
    On July 6, The New York Times published detailed 
allegations about the detention facility at Clint, Texas, based 
on dozens of interviews with Border Patrol officers, lawyers, 
immigrants.
    Here's what the Times wrote, I'm sure you're familiar with 
it: Outbreaks of scabies, shingles, and chickenpox were 
spreading among the hundreds of children and adults who were 
being held in cramped cells, according to agents. The stench of 
the children's dirty clothing was so strong it spread to the 
agents' own clothing. People in town would scrunch their noses 
when they left work. The children cried constantly. One girl 
seemed likely enough to try to kill herself that the agents 
made her sleep on a cot in front of them so they could watch 
her as they were processing new arrivals.
    You were asked about these the next day on ABC News, these 
allegations, and you said that they were, quote, 
``unsubstantiated,'' and you explained, ``because there's 
adequate food and water, because the facility's cleaned up 
every day, because I know what our standards are, and I know 
they're being followed, because we have tremendous levels of 
oversight, five levels of oversight.''
    That oversight includes the Department's independent 
inspector general, correct?
    Secretary McAleenan. Yes.
    Mr. Sarbanes. It also includes lawyers who monitor 
compliance with the Flores settlement to ensure the children 
are protected, correct?
    Secretary McAleenan. It does include the court oversight--
--
    Mr. Sarbanes. Okay.
    Secretary McAleenan [continuing]. which is partly done 
through the Flores monitors.
    Mr. Sarbanes. So in a sense in that statement you're citing 
all these various levels of oversight, but that includes the IG 
and it includes the lawyers who do the monitoring under Flores.
    Well, as you probably know, the IG testified in front of 
our committee on Friday, along with the lawyer who inspected 
that facility and interviewed children. The IG had inspected 
five detention facilities in the Rio Grande Valley housing over 
2,500 children.
    She found that more than 800 had been held longer than the 
72 hours permitted under the Flores agreement and under CBP's 
internal standards, which are known as TEDS. This included at 
least 50 unaccompanied children younger than seven years old, 
many of them in detention for over two weeks.
    Do you agree--you must do--that holding young children in 
overcrowded detention cells for over two weeks violates both 
the Flores decision and the TEDS standards?
    Secretary McAleenan. So not only do I agree, while the IG 
was touring our facilities on June 10, on CNN I said that no 
American should be comfortable with children in a police 
station for days on end. That's not an appropriate setting for 
kids.
    Mr. Sarbanes. The IG also testified the teams, quote, ``The 
teams also documented additional instances of noncompliance 
with applicable detention standards. These included 
noncompliance with standards applicable to the detention of 
alien children, including lack of access to hot meals, showers, 
and a change of clothes.''
    You don't seem to be disputing the IG's findings that DHS 
violated both Flores and its own detention standards.
    Secretary McAleenan. Congressman, I'd like the opportunity 
to quickly unpack these very different sets of allegations so I 
can----
    Mr. Sarbanes. Well, the problem is I'm going to run out of 
time. So if I have time at the end, I'm going to let you unpack 
that. But I just want to reference what Elora Mukherjee, which 
is a lawyer who visited Clint as part of the Flores oversight, 
and she was testifying to, quote, ``seeing children who were 
dirty, children who wore clothing that was visibly stained with 
dirt, nasal mucus, breast milk.''
    None of the children she interviewed reported having access 
to soap to wash their hands. She said that many children had 
not showered or bathed for days. Some had not showered or 
bathed once since crossing the border. They reported they did 
not have access to clean clothing.
    So I understand that there's a debate about why we're where 
we are, but there cannot be any debate--and I assume you 
agree--that when you're dealing with children there are basic 
standards, humanitarian standards, when it comes to their 
treatment that need to be followed.
    This is gut-wrenching testimony that we got. It's 
unconscionable we would treat children this way in the United 
States. And I think what Ms. Mukherjee was witnessing clearly 
does not comply with DHS' detention standards and with the 
Flores agreement.
    So I'm going to let you speak now, but I just want to ask 
you, beseech you and your Department to take more ownership of 
the treatment standards here.
    Leaving aside why it's happening, why the overcrowding, and 
we've got our own perspectives and they probably differ on 
that, once a child is in that situation it's a matter of basic 
human compassion that we treat them with decency and 
humanitarian response.
    Secretary McAleenan. Mr. Chairman, I'd appreciate the 
opportunity to answer the remarks of the Congressman.
    Chairman Cummings. Yes.
    Secretary McAleenan. Thank you.
    So, first, could not agree more that overcrowding of 
children in our facilities is not an appropriate situation or 
result. That's why on May 1 the administration asked for a 
supplemental that included $3.3 billion for Health and Human 
Services to increase their bed space capacity for unaccompanied 
children.
    In my opening statement I explained that within weeks of 
receiving that funding we have reduced our in-custody 
population of children from a high of near 2,700 to about 350 
at the end of the day yesterday, from over 1,200 kids that were 
with us for more than 72 hours to fewer than 50 at the end of 
the day yesterday. That's what we were able to do with the 
resources that we asked for and waited two months for Congress 
to act upon.
    So I agree with you, we need to take ownership of the care 
and custody of children at the border, but we needed Congress' 
help to do that. And as soon as we got it we applied it 
effectively and urgently.
    Now, to clarify, the various allegations that you walked 
through in terms of difficult situations at the border, I 
personally have explained those situations that were in the 
IG's findings multiple times in public in press conferences and 
hearings and how concerned we were about it, why we needed 
Congress to help us change the law and provide the resources 
necessary to care for children.
    You referenced the Flores monitors. The Flores monitors 
that visited Clint Station interviewed children in a conference 
room. They did not go into the custody areas of the facility. 
They did not see the supplies available. They did not see the 
toothbrushes available.
    I was in Clint last week. I talked to a Coast Guard 
volunteer who's in charge of procurement for that sector. He 
told me they had tens of thousands of toothbrushes in the 
sector, including available at Clint Station. So when I said 
the allegations were unsubstantiated, I was speaking to the 
Flores monitors who claimed children didn't have food, water, 
or toothbrushes.
    Now, you mentioned the New York Times article on July 6. 
Clint had 700 kids in custody at one point. It absolutely was 
overcrowded. As kids are arriving from the border, sometimes 
200 in a single day, they're coming in after a difficult 
journey, held in squalid conditions by smugglers, they're going 
to have dirty clothes. Guess what? We have laundry there. We're 
washing their clothes. We're giving them new clothes.
    This was happening in an iterative fashion, but it's really 
challenging when you're that overwhelmed. Clint Station has 
added additional showers to make sure that every kid can take a 
shower within the first 24 hours when they arrive at that 
station, and it's been a huge effort on behalf of those men and 
women to do their absolute level best to take care of children.
    I want to make sure that this committee has that context 
and doesn't assume that we took it lightly or were just, you 
know, shrugging our shoulders. We were fighting this challenge. 
We were asking for help from Congress. And as soon as we got 
it, we've applied it, and there's a much better situation for 
children at that border now.
    Chairman Cummings. Mr. Gosar.
    Mr. Gosar. Thank you, Mr. Chairman.
    You know, I want to build on some of my former colleagues' 
comments.
    Secretary McAleenan, can you tell me how the recycling of 
children is a problem at the border?
    Secretary McAleenan. Sure, Congressman. This is part of our 
efforts to identify how these loopholes in our law are 
generating behavior that puts children at risk, and how we can 
address it not only with our border resources, but with our 
investigative partners at Homeland Security Investigation.
    Early in my tenure, he deployed 400 special agents to the 
border in El Paso and Rio Grande Valley, where we see most of 
the family units arriving, to really focus on the potential for 
parents--for adults bringing children with them who are not 
their own, just to try to evade enforcement of our immigration 
laws.
    In that initial several weeks, with the referrals from the 
Border Patrol agents, they found about 15 percent of those 
referrals - when a Border Patrol agent said there's a risk here 
with this family unit, we don't think that this adult is a 
parent - actually were substantiated and demonstrated that they 
were not related. So that's a huge challenge.
    Child recycling is maybe the worst example of it. ICE now 
has three significant cases in multiple cities around the 
country where they've identified a small group of children, say 
five to eight children who are being used by dozens of adults 
to cross our border seeking release into the United States.
    So they're pursuing those cases and appropriate 
prosecutions, but it's a huge indication that the gaps in our 
framework are putting children at risk.
    Mr. Gosar. And you're aware that even in early 2014 that 
the cartels were actually in Central America extorting families 
to send their children to the United States. Are you aware of 
that?
    Secretary McAleenan. Yes. I'm aware that----
    Mr. Gosar. So we were enabling this enterprise to move 
forward.
    Now, you're familiar with Child Protective Services, are 
you not, in this country?
    Secretary McAleenan. Broadly, yes.
    Mr. Gosar. Yes. So if I took my child from Flagstaff, 
Arizona, and went to Seattle knowing that there's a 30 percent 
chance there's going to be some type of criminal enterprise 
along the lines, not knowing that I'm going to get food and 
water and protection, would my child be able to stay with me?
    Secretary McAleenan. No. I mean, the Child Protective 
Services structure in the U.S. is designed for the best 
interest of the child.
    Mr. Gosar. You know, over and over again we still don't 
really understand the complexity of what you're under. So is it 
easier to take care of individual men coming across or family 
units? What takes more work from your standpoint from your work 
force?
    Secretary McAleenan. Well, certainly for processing and 
care we have very high standards for children in our custody 
and anywhere in Federal custody, both under the TVPRA and the 
Flores settlement.
    Single adults is what our structure was actually built for. 
These stations were built, most of them, decades ago. Primarily 
the crossings then were single adult males from Mexico. They 
were with us just a few hours before being repatriated. That's 
the structure that's existed on the border for decades.
    So this kind of population, with families, with 
unaccompanied children, is a very difficult challenge for us 
given the facilities and resources we have at the border.
    Mr. Gosar. And the status of some--of a child going through 
this long, arduous journey, they're probably pretty debilitated 
health-wise, right?
    Secretary McAleenan. We see a lot of communicable disease, 
a lot of severe illnesses. In some cases we've had immediate 
surgery required for congenital defects. They actually came to 
the border to have surgery. We are being faced with a younger 
and sicker population this year than we've ever seen at the 
border before.
    Mr. Gosar. So it's going to get worse for you. My 
understanding is yesterday or last night the World Health 
Organization actually declared an outbreak of Ebola now that 
they can't contain in Congo. I've been talking about this for 
some time.
    How is that going to implicate you, and particularly 
looking at these family units, and how will it slow down the 
processing of individuals?
    Secretary McAleenan. Well, having medical professionals 
embedded in our facilities gives us a chance to screen children 
and adults arriving into border facilities to ensure they don't 
have a communicable disease upon arrival.
    We're somewhat insulated given the incubation period for 
Ebola is about 21 days. The journey from Africa to our border 
generally takes 30 days or more.
    But it's something we're going to watch carefully. I'm in 
close contact with Secretary Azar on the Ebola outbreak. We 
have a responsibility at the border to be aware of it.
    Mr. Gosar. Is there one thing that we could actually have 
help with HHS that you would ask for that would actually 
expedite some of those issues?
    Secretary McAleenan. So, you know, the Public Health 
Service Commissioned Corps, these are uniformed doctors and 
nurse practitioners that have been in our border facilities 
with us, the funding and support for those tremendous 
professionals in uniform working alongside us is a huge benefit 
and helps us carry out our mission.
    Chairman Cummings. Thank you very much.
    I yield myself now six minutes to ask questions.
    You know, I sit here, Mr. Secretary, and one of the things 
that always has bothered me, and it's bothering me about this 
hearing, is it seems that we have a tendency to, I want to say 
sugarcoat, but clearly there's something going wrong down at 
the border, a lot.
    My Republican friends have said that we just declared and 
said that this was an emergency. I've been begging for a 
hearing before I became chairman. Begging.
    And the thing that I think bothers me the most is that when 
I see the pictures and I hear the testimony--and by the way, 
I'm going down there myself, and I'd love for you to accompany 
me, because I want us to see the same things--I can tell you 
that I'm at a point where I begin to wonder whether there is an 
empathy deficit, an empathy deficit.
    So, Mr. Secretary, I was disappointed when you decided last 
year to ignore the request for documents that I made with 
Representative Meadows. It's a bipartisan request. And you 
refused to produce a single document about these kids, which is 
why we had to issue subpoenas.
    How much money are we spending? How much money are we 
spending of the American people's dollars, their hard-earned 
tax dollars? How much are we spending?
    Secretary McAleenan. On which issue?
    Chairman Cummings. Come on. On all of them. Just give me a 
ballpark figure. I'll take it.
    Secretary McAleenan. Department of Homeland Security is a 
$60 billion entity with fees. CBP is about $15 billion.
    Chairman Cummings. Yes. That's a lot of money.
    In April of this year you gave an interview with Lester 
Holt at NBC. You claimed that the children you separated were, 
and I quote, ``always intended to be reunited.''
    You also said this, and I quote, ``Really, it was done very 
effectively. Border Patrol agents kept very careful records 
between the relationships between parents and children, and 
those connections were made very expeditiously by Health and 
Human Services working with the Department of Homeland 
Security,'' end of quote.
    Given everything that has come out and everything that we 
now know, do you still stand by that statement today, is it 
your testimony today that you reunited these children very 
effectively and expeditiously?
    Secretary McAleenan. So, Mr. Chairman, in that interview, 
and in response to a number of questions and hearings on the 
same topic, what I've talked about then as CBP commissioner is 
our Border Patrol agents capturing the relationships between 
adults and children at the border in our system.
    I've also acknowledged the limitations, that systems 
maintained by different immigration agencies have not 
historically interfaced with one another in a way that's easy 
to track those files. That's something we're going to improve 
under the funding we got in the supplemental. We're creating a 
unified immigration portal.
    That said, I think the response to the Ms. L. court order 
and how fast the majority of children were reunified spoke to 
good captures of data and a tremendous effort by HHS and ICE to 
find the child and the parent and bring them back together. I 
do think that's in the record of the court filings with the Ms. 
L. court in the weeks after that ruling.
    Chairman Cummings. Well, that's interesting that you raise 
that, the Ms. L. case, because the judge in that case said your 
agency did a better job of tracking immigrants' personal 
property than their children. So you could find their keys, but 
you could not finds their children. Come on now.
    Secretary McAleenan. I'm referencing the result----
    Chairman Cummings. Yes, well, we're talking about the same 
case. You quoted from it and I did.
    Secretary McAleenan. Sure. I'm talking about the results of 
the----
    Chairman Cummings. Yes, I'm talking about human beings. I'm 
not talking about people that come from, as the President said, 
s-h-holes. These are human beings, human beings, just trying to 
live a better life. So the problem with your claim is that it 
is contradicted by the facts.
    We now have documents and they show this not to be true. 
And I don't say that lightly. Your claim is also refuted by not 
one, but two independent inspectors general.
    For example, on September 27, 2018, the DHS inspector 
general issued a scathing report that this, and I quote, "DHS 
was not fully prepared to implement the administration's zero-
tolerance policy or to deal with some of the after-effects. DHS 
also struggled to identify, track, and reunify families 
separated under zero tolerance due to limitations with its 
information technology systems, including a lack of integration 
systems--between systems," end of quote.
    The IG also found that the Trump administration's public 
claim that you had a, quote, ``central data base''--and listen 
to this, Mr. Secretary--the IG said it was blatantly false. The 
IG also found that, quote, ``There's no evidence that such a 
data base even exists,'' end of quote.
    Mr. Meadows, to his credit, has often said, and we all have 
said, we want transparency. Can you understand when we hear 
that kind of information, listen to the IG, who is independent, 
see what--and listen to our colleagues who have been there 
right on the ground--and then we hear that there--you're 
talking about a data base and there is no data base, that seems 
to go in the opposite direction of transparency?
    Therefore, when we hear about stories coming out from you 
and your agency that everything is pretty good and you're doing 
a great job--I guess, you feel like you're doing a great job, 
right, is what you're saying?
    Secretary McAleenan. We're doing our level best in a very 
challenging situation.
    Chairman Cummings. What does that mean? What does that mean 
when a child is sitting in their own feces, can't take a 
shower? Come on, man. What's that about? None of us would have 
our children in that position. They are human beings.
    I'm trying to figure out--and I get tired of folks saying: 
Oh, oh, they're just beating up on the Border Patrol. Oh, 
they're just beating up on Homeland Security.
    What I'm saying is I want to concentrate on these children, 
and I want to make sure that they are okay.
    I will say it, I've said it before and I will say it again, 
it's not the deed that you do to a child; it's the memory. It's 
the memory.
    And so--and I told the head of Border Patrol the other day, 
I said, I want to know what's happening in the meantime.
    We are the United States of America. We are the greatest 
country in the world. We are the ones that can go anywhere in 
the world and save people, make sure that they have diapers, 
make sure that they have toothbrushes, make sure that they're 
not laying around defecating in some silver paper. Come on. 
We're better than that.
    And I don't want us to lose sight of that. When we are 
dancing with the angels, these children will be dealing with 
the issues that have been presented to them. How do you say to 
a two-year-old, your mother--we can't find your mother, but we 
can find the keys? Oh, we'll find the keys. We've got your 
mom's keys.
    So I just think we can do better. We can go on and on and 
on. But I am hoping that we will see some immediate 
improvements. This isn't beating up. I just want to see an 
improvement, and I want to see it, and I want to see where we 
go with this problem.
    Finally, let me ask you this, Mr. Secretary. And that 
wasn't the only thing in the report. The inspector general at 
HHS issued its own report in January 2019. That report found 
that the Trump administration, and I quote, ``faced significant 
challenges in identifying separated children, including the 
lack of an existing integrated data system to track separated 
families across HHS and DHS and the complexity of determining 
which children should be considered separated.''
    The IG also criticized your agency, the report found. And I 
quote, ``DHS provided ORR with limited information about the 
reasons for these separations which may impede ORR's ability to 
determine appropriate placements.'' As a result, the IG found 
that the separated children and, I quote, ``were still being 
identified more than five months after the original court order 
to do so.''
    Both these IG reports were issued before you made your 
statements in April.
    So, Mr. Secretary, have you read those reports?
    Secretary McAleenan. Yes, I have.
    Chairman Cummings. Then how in the world can you sit here 
today under oath and defend your statement that you kept very 
careful records, that you worked with HHS very effectively and 
efficiently, and that you reunited children expeditiously?
    Secretary McAleenan. Respectfully----
    Chairman Cummings. By the way, very expeditiously, you 
said. Go ahead.
    Secretary McAleenan. Respectfully, I actually highlighted 
that issue before you asked the question, but--and I've 
testified on it before. We did have a lack of integrated data 
bases for the immigration agencies between CBP, ICE, Health and 
Human Services. That is correct.
    What I've testified before and what I stated a few moments 
ago was that the CBP data was carefully captured. It was not 
available in an integrated fashion from an IT perspective. But 
when you put all that information together with what HHS and 
ICE had, that we're able to work within weeks to unify the vast 
majority of those adults and children.
    And at this time, through that process, every single child 
has an identified parent and has gone through that process with 
a court and with the ACLU plaintiff's attorneys.
    And second, I would welcome the opportunity to travel with 
you to the border and to see our men and women and how hard 
they are working to care for children. Border Patrol agents 
holding children that were not their own, brought across by 
smugglers, putting formula in baby bottles together.
    There's no one defecating in a mylar blanket. We are taking 
care of these children thanks to the resources we finally have. 
They're moving very quickly through our facilities to Health 
and Human Services to a better situation. I'd be happy to show 
you that at the border, Mr. Chairman.
    Chairman Cummings. I'm looking forward to traveling with 
you. We'll try to make those arrangements as soon as possible.
    Mr. Hice.
    Oh, I'm sorry. You had something?
    The ranking member.
    Mr. Jordan. Mr. Secretary, would it have helped if you had 
got the resources when you asked for them?
    Secretary McAleenan. Of course.
    Mr. Jordan. When did you become secretary?
    Secretary McAleenan. I became acting secretary on April 8.
    Mr. Jordan. This year?
    Secretary McAleenan. Or April 10 this year, yes.
    Mr. Jordan. A couple weeks later you asked for money, 
didn't you?
    Secretary McAleenan. Yes.
    Mr. Jordan. You asked for money because they won't address 
the underlying problem, what's causing the problem. They won't 
fix the asylum law, won't fix Flores, won't build the border 
security wall, say it's not a crisis, say it's manufactured, 
say it's contrived when it actually is a crisis. Then the 
crisis gets even worse, and then they blame you, who took the 
position in April and asked for help three weeks later.
    Then they wait two and a half months to send the money. And 
when they send the money, we had the picture a little bit ago 
of the 40 individual males in the--adult males-- in the 
facility. You asked for ICE bed money, and what'd they say?
    Secretary McAleenan. They didn't provide it.
    Mr. Jordan. Didn't provide it. And yet you're the bad guy.
    You take the position in April, ask for resources a couple 
weeks later. They denied the resources for two and a half 
months. And then when the problem gets so bad they say, oh, 
it's your fault, even though you've been trying to address the 
underlying problem.
    And then when they won't do that you say, at least give us 
money to fix the crisis that you all helped us create because 
you wouldn't address the underlying problem.
    It gets so bad they finally send the money, but they still 
put limitations on you because they want the political issue 
when we're talking about kids. We all care about the kids. This 
is ridiculous.
    Let me ask you this. We all know there's a crisis on the 
border. Does accusing CBP agents of torture help with the 
crisis?
    Secretary McAleenan. In no way.
    Mr. Jordan. Does accusing CBP agents of working at 
concentration camps help with the crisis?
    Secretary McAleenan. No. It obfuscates the real issues.
    Mr. Jordan. When the chairman of the House Judiciary 
Committee accuses folks down there working hard of negligent 
homicide, does that help with the crisis?
    Secretary McAleenan. Of course not.
    Mr. Jordan. Would abolishing ICE help with the crisis?
    Secretary McAleenan. No.
    Mr. Jordan. Would abolishing your entire agency help with 
the crisis?
    Secretary McAleenan. No.
    Mr. Jordan. Does waiting 10--2-1/2-- months to get the $4.6 
billion you asked for two weeks after you took the job, does 
that help with the crisis?
    Secretary McAleenan. No. And it left children in these 
situations way too long, and we've proven that as soon as we 
got the resources we were able to put them in a much better 
situation.
    Mr. Jordan. Does denying money for ICE beds help with the 
problem?
    Secretary McAleenan. No. That's contributing to 
overcrowding that still exists today.
    Mr. Jordan. I don't know how many times you've said it 
already, you said it with Mr. Roy and I think Mr. Keller, two 
things right now would help, give you the money for the ICE 
beds and fix Flores. And I think you said to Mr. Keller you 
think that would be almost immediate action, immediate help. 
Within a couple weeks you would see the message sent so these 
people won't take this dangerous trip. That would help 
immediately. Is that right?
    Secretary McAleenan. That is right.
    Mr. Jordan. Yet the majority doesn't want to do it, doesn't 
want to do it.
    The chairman just called it a deficit--he accused you and 
your agents and your agency of a deficit of empathy. Do you 
want to respond to that, Mr. Secretary?
    Secretary McAleenan. I can tell you that the men and women 
of DHS and me personally are working----
    Mr. Jordan. Where is that picture? I am going to interrupt 
you 1 second, then I want you to take as long as you want.
    Put this picture up.
    Does that look like a deficit of empathy right there?
    Secretary McAleenan. Not at all.
    Mr. Jordan. That's the kind of stuff that happens every 
single day on the border, doesn't it?
    Secretary McAleenan. Right. I just wonder why would an 
agency, if they have a deficit of empathy, create a border 
search trauma and rescue team to try to protect people that are 
making this dangerous crossing, make over 4,000 rescues a year 
on their own time, with a collateral duty apply to be emergency 
medical technicians so they can help people in dangerous 
conditions? Where's the deficit of empathy there?
    These are predominantly Latino Border Patrol agents. They 
have children of their own. They're out there trying to protect 
them on the line and trying to do the best they can to take 
care of them in our facilities.
    Mr. Jordan. Now, you just said something there. You said 
they're predominantly Latino border agents.
    Secretary McAleenan. That's correct.
    Mr. Jordan. The majority of your Customs and Border Patrol 
agents are of Latino descent, Hispanic descent?
    Secretary McAleenan. Border Patrol agents, yes.
    Mr. Jordan. Yes. It just doesn't help. It doesn't help.
    At some point, at some point we have to get past all this 
and focus on what is driving the problem, and we all know what 
it is: Flores has to be fixed, the asylum law has to be--the 
loopholes, that has been to be addressed.
    And, frankly, while we're getting that done, why don't we 
give you a few more dollars so you can take these adult males, 
have enough beds for them so they're not in the kind of 
facility that the picture was put up earlier, right?
    Secretary McAleenan. That would be great.
    Mr. Jordan. And, oh, by the way, oh, by the way, maybe if 
we had a border security wall, that would help as well, because 
not all these people are coming to ports of entry. A lot of 
folks are coming across, too.
    I mean, all this is part of the problem. Let's fix it. 
Let's fix it instead of just saying the things we've been 
saying.
    With that, Mr. Chairman, I yield back.
    Chairman Cummings. Thank you very much.
    Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    And I want to thank you, Mr. McAleenan, for your testimony. 
And I know I speak for this entire committee when I thank the 
border personnel for the work they're doing well beyond the 
call of duty. There is no disagreement about that.
    I just want to see where we were in order to see where 
we've gotten, because some of your testimony has been very 
helpful in showing progress, and I understand that you were 
fairly recently there.
    But what you had to deal with is a policy where 4,000 
children were separated from their parents since mid-2017. 
There was a cancellation--I want you to note this--of what had 
proved one of the few successful policies, that was from the 
Obama era, where--which apparently kept people out of 
detention.
    It's called the Family Case Management Program, where 
families had to report, having been released, had to report and 
there was a 99 percent success rate on that, only a tenth of 
what the family detention costs.
    Then there was another Trump administration policy where 
they targeted sponsors of children for arrest and deportation. 
And I'm talking about--our figure is 170 potential sponsors who 
came forward for these children. Well, then they were deported. 
So you can see the effect that would have. That has chilled 
that humanitarian response.
    Now, Congress has prohibited that practice now, I'm pleased 
to say. But it is still having an effect because DHS and HHS 
are sharing records so people are not stepping forward.
    Then, of course, there was the metering process, and we've 
discussed that in this committee. DHS found that limiting the 
volume of asylum seekers--and here I'm quoting--entering at 
ports of entry leads some aliens who would otherwise seek legal 
entry into the United States to cross the border illegally.
    Mr. Secretary, I take it you agree that those policies, 
some of which you were not a part of, did exacerbate crowding 
at CBP facilities?
    Secretary McAleenan. Could I tackle those one by one, 
Congresswoman? And thank you for----
    Ms. Norton. Remember, I have only----
    Secretary McAleenan [continuing]. for being at our ribbon 
cutting for the new Department of Homeland Security 
headquarters.
    Ms. Norton. Of course, pleased to do that.
    Secretary McAleenan. Appreciate your support for that.
    Ms. Norton. But I need you to answer. I have a limited 
amount of time. Did it exacerbate the policies or not, sir?
    Secretary McAleenan. No.
    Ms. Norton. What I've just described did not exacerbate the 
policies?
    Secretary McAleenan. If you're going to ask it in a blanket 
way, I'd prefer to target--you raised four separate issues.
    Ms. Norton. Well, I'm going to let you go back in a moment, 
but I have limited time.
    Would you agree that this family management program, which 
I described, 99 percent success rate, people showing up, was 
successful? Would you agree that that was a successful way to 
relieve overcrowding and yet get compliance with the law?
    Secretary McAleenan. So I can't agree that it was 
successful in ensuring compliance with the law. What we found 
is that when you have families that are not detained we don't 
actually complete the process in a way that can be effective.
    Ms. Norton. Ninety-nine percent of the families showed up.
    Secretary McAleenan. Appeared for their initial hearing. At 
this point we have 150 cases of final orders of removal, and 
those families have not shown up to be removed from the 
country.
    Ms. Norton. Look, I can only go on the statistics we have 
before us. So you're saying that that program, where you had 
such a high rate of compliance, was not successful after all, 
even given the figure I just gave you?
    Secretary McAleenan. They appeared at their initial 
hearing, Congresswoman, but they did not complete the process 
in a way that allowed for repatriation.
    Ms. Norton. I'm saying--I'm only trying to show that if you 
release these families they will show up. You seem to want to 
avoid any credit of these families for compliance with what the 
law says--show up here, 99 percent showed up here. Why did you 
get rid of that program?
    Secretary McAleenan. Because it wasn't working, because it 
was actually more costly to continue to pay for it day after 
day when a family is released than complete a proceeding in 40 
to 50 days in custody, and because we have 150 final orders of 
removal of families in that program that are not showing up to 
be repatriated. That's not successful.
    Chairman Cummings. Thank you. The gentlelady's time has 
expired.
    Mr. Hice.
    Mr. Hice. Thank you, Mr. Chairman.
    I have been at the border, and I have absolutely not seen 
any indication of a deficit of empathy. In fact, just the 
opposite is what I have seen over and over and over. I'm 
returning back to the border at the end of next week. It is 
unbelievable that such accusations would be hurled against you 
and those agents who are working so hard and giving so much of 
their time.
    And to ask for seeing improvements, there's no question, as 
you have testified, that as the funds came, which the Democrats 
continually held back from coming, as the funds were made 
available improvements have been evident, and they've been 
stunning.
    I'd like to ask you, regarding the cartels renting of 
children, I've seen that agents are now even beginning to find 
paper fliers advertising this type of thing. Is that true?
    Secretary McAleenan. Yes. I mean, we've seen direct 
Facebook advertisements in Central America. Smugglers will use 
any means necessary to get customers.
    Mr. Hice. How much does it cost to rent a child?
    Secretary McAleenan. It depends. We've had indications in 
Homeland Security Investigation efforts and Border Patrol 
agents doing good intelligence interviews that it could cost 
anywhere from a few hundred or even in some cases less than a 
hundred dollars, up to a thousand or more.
    Mr. Hice. So walk us through the process. A child--there's 
advertisement, parents, someone responds, a child is offered?
    Secretary McAleenan. Yes. So in many of these communities 
in Central America it's pretty known who the coyote is, who the 
alien smuggler who's willing to bring you to the United States 
is in those communities.
    So they'll have a situation where everybody knows if they 
bring a child, they'll be allowed to stay in the U.S. They call 
it a passport for migration. I heard that directly from a 
gentleman from Huehuetenango, the western-most province of 
Guatemala.
    If they have an individual who wants to go to the U.S. and 
somebody has a child, that they might want to make some 
additional money renting that child; or they want the child to 
be delivered to a relative in the U.S., they'll say, hey, take 
my child, they go procure a fraudulent document, and then 
they're smuggled to the U.S. border.
    Mr. Hice. And the cartels are receiving that money?
    Secretary McAleenan. They're getting paid for the 
fraudulent document, they're getting paid for the smuggling 
event, and the child is being put at risk.
    Mr. Hice. Any idea how many children are being trafficked 
like this?
    Secretary McAleenan. So that's a huge concern. We've 
identified 5,500 cases of fraud in family units in just the 
eight weeks or so that we've had special agents helping our 
Border Patrol agents with these investigations. Fifteen percent 
of those that they've interviewed have turned out to be 
fraudulent cases. That tells me that we might be scratching the 
surface of this problem.
    The number of children being put at risk might be even 
higher. If I could give you a quick stat. Of the first 2,475 
family units they've interviewed, 352 were fraudulent, 14.2 
percent; 921 fraudulent documents have been uncovered; and 
we've prosecuted 615 individuals for basically trafficking or 
smuggling a child with fraudulent documents.
    So that's just in the last eight weeks we've been doing 
this operation.
    Mr. Hice. Unbelievable.
    Another issue is obviously the treatment of migrants. We've 
heard in this room that there are people being held in rooms 
with no running water. We heard several days ago that people 
are being forced to drink from toilets. Whereas the regional 
Border Patrol Chief, Chief Border Agent Aaron Hull, has 
disputed these allegations and have said they're absolutely not 
accurate, that no one is forced to drink from toilets, noting 
that cells either have water fountains or five-gallon jugs of 
water.
    What's the truth of the matter?
    Secretary McAleenan. That's our requirement by our policy. 
Again, it's overseen by multiple layers of oversight. Every 
station I've been to has both either running water--and 
sometimes a faucet will break temporarily--but has running 
water or the 5-gallon jugs outside.
    Children must be kept in the least restrictive setting. 
Their doors in their areas where they're being held are not 
even locked. They're able to move around freely.
    So we are providing water consistent with our policy 
directly available in our custody.
    Mr. Hice. Maintaining border agents has got to be--and 
recruiting them--has got to be a serious problem. I know you're 
working on it. There's about 7,000 fewer than needed, as I 
understand it.
    Does it help when some elected officials refer and liken 
our agents with Nazis and claim that the agency is running 
concentration camps?
    Secretary McAleenan. Yes, I talked about in my opening how 
unproductive and unacceptable demonizing law enforcement 
professionals, who are--they chose a career protecting others 
is. It does not help.
    We are turning the corner on our recruiting due to about 
three dozen process changes we made over the last several years 
at CBP. We hired more agents, net agents, last year than we 
started the year with, and we're going to do that again even 
with the shutdown.
    So we're making some progress, but it is a challenge in 
this media and political environment.
    Mr. Hice. Thank you, Mr. Secretary.
    I yield back.
    Chairman Cummings. Thank you very much.
    As we go to Mr. Rouda, I want to just clarify something, 
because we have a way at times of hearing a few words and then 
we repeat them over and over again.
    Mr. Hice just said something that is--that I didn't say. 
And I, from the very beginning, I said I don't mean for us to 
get confused with regard to the, Mr. Secretary, with regard to 
the good work that the folks down there are doing.
    What I was saying, and I know what I said, is that you were 
a co-signer of the zero policy document. Is that right? Would 
you agree?
    Secretary McAleenan. Would you like the context on that, 
Mr. Chairman, or just a yes-or-no question?
    Chairman Cummings. No. I just want--because I'm really 
not--I just wanted to make a point, just trying to correct him. 
You were involved in that policy?
    Secretary McAleenan. I signed a memo----
    Chairman Cummings. Right, you signed a memo.
    Secretary McAleenan [continuing]. presenting options for 
increasing prosecution for immigration violations at the 
border.
    Chairman Cummings. And I will give you time later on to 
explain that. All I'm saying, and I felt--I felt that there was 
an empathy deficit there, in that, not knocking the Border 
Patrol people, and I didn't say that, all right.
    Now, Mr. Rouda--Mr. Gomez. Mr. Gomez.
    Mr. Gomez. Thank you, Mr. Chair.
    Before I start, I want to break up my questioning.
    The percentage of the individuals coming from--that are 
apprehended at the border, what's the percentage from Mexico? 
What's the percentage from Guatemala? What's the percentage 
from, you know, the three countries, Guatemala, Honduras, and 
Nicaragua?
    Secretary McAleenan. Sure. So this is the first year, 
Congressman, that we've had a higher percentage from any 
country other than Mexico, and for every month of this year the 
number has been higher from Guatemala than Mexico, and for 
four--five of the nine months this year the number has been 
higher from Honduras than Mexico as well.
    Mr. Gomez. Additionally, have you heard of the fact that 
net migration from Mexico is inherently zero?
    Secretary McAleenan. I have.
    Mr. Gomez. And additionally, the undocumented population in 
the U.S. has decreased, and that's because a lot of Mexicans 
are returning back to Mexico?
    Secretary McAleenan. I've definitely seen studies on the 
first point. I'm not sure the second point would be accurate at 
this stage given the flow we've seen this year.
    Mr. Gomez. The reason why I want to bring that up is that 
there was a claim made earlier that says immigrants know if 
they bring a child to the border that they'll be able to cross 
and to get asylum into this country. It seems that we only 
focused on what they called the magnet, right?
    Secretary McAleenan. Right.
    Mr. Gomez. But yet, at the same time, if--do the Mexicans 
also know about this magnet, the fact that--as you claim?
    Secretary McAleenan. Actually, we're able and much more 
successful at repatriating Mexican families than noncontiguous 
families. But as you noted, the numbers have been down from 
Mexico, not necessarily because they couldn't take advantage of 
the same loopholes, but because Mexico's economic development 
and opportunity creation has exceeded, you know, the push for 
migration. They've also had a very significant demographic 
shift where the birthrate is about similar with the United 
States.
    So I don't believe that that's a lack of taking advantage 
of the loophole.
    Mr. Gomez. Okay. My point--that's exactly my point. 
Everybody always makes it seem that this is like--that there's 
this big magnet that draws immigrants to this country and it's 
just here. But there's also the push factors in these other 
countries--economics, violence--that push those people to flee, 
right?
    And we like to make--pretend that things are very simple, 
but they're not. Sometimes when the hard lines of--like zero 
tolerance-- people think that that's going to solve the 
problem. It's not, you know. It has to be in coordination with 
a strategy that's developing the countries and helping the 
economics in the countries in order for the people not to 
leave.
    You know, shifting millions of dollars of aid from the 
Northern Triangle countries to Venezuela is not smart when it 
comes to immigration. I believe Venezuela has a different issue 
and we have to get money to that country, but that complicates 
the situation.
    Before I run out of time I wanted to move on to a different 
issue.
    Secretary McAleenan. Could I respond to that point?
    Mr. Gomez. Sure.
    Secretary McAleenan. Because I believe a multifaceted 
strategy absolutely requires engagement with Central America. 
I've been to Central America three times in the last six weeks, 
met with all three Presidents, including the incoming President 
of El Salvador.
    Advancing cooperative efforts on security, targeting 
transnational criminal organizations, and fostering economic 
development are absolutely essential parts of the 
administration's strategy.
    Mr. Gomez. I appreciate that.
    And one of the things we've also seen is an increased use 
of for-profit prisons and safety issues. Since 2017 the value 
of ICE contracts awarded to private detention companies has 
increased sharply. The two biggest contracts, GEO Group and 
CoreCivic, were paid a total of $810 million.
    But there has been some questions regarding some serious 
problems at these private prisons. The IG reported on five ICE 
detention facilities, including one run by CoreCivic, and it 
said, quote, ``identified problems that undermine the 
protection of detainees' rights, their humane treatment, and 
the provision of a safe and healthy environment.''
    Next year they'll be awarded--CoreCivic will be awarded 
more than $141 million in new contracts. Secretary, do you 
agree that ICE should not reward a contract that is putting the 
health and safety of detainees at risk with more than $100 
million in new contracts?
    Secretary McAleenan. With any government contract you want 
to ensure that the contractor is meeting the standards 
required. ICE does oversee this aggressively. The contractors 
are committed to comply with the performance-based detention 
manual standards, which are extensive, issued in 2011, in the 
last administration, and those kind of issues that are 
identified are corrected and followed up on.
    Mr. Gomez. Mr. Secretary, I've run out of time, but the 
issue regarding the use of for-profit prisons is a concern. 
Some of the safety complaints that are coming out of these 
prisons is a concern. I would love to follow-up on that.
    But with that, I yield back.
    Chairman Cummings. Mr. Norman.
    Mr. Norman. Thank you, Mr. Chairman.
    And, Mr. McAleenan, I really appreciate you coming. You 
know, listening to some of the questions you've had is like 
jumping on--you know, shooting the messenger. It's like 
pointing to a cancer patient and blaming the doctor because 
he's not getting the chemotherapy to treat the cancer patient 
and somehow saying that you're responsible for that.
    And, Mr. Chairman, I appreciate you clarifying the deficit 
of empathy, because I thought that's who you were talking about 
here. I'm glad that was not.
    But I really take issue with the rhetoric that we've had 
over the last couple of weeks with, you know, drinking out of 
toilets, children in cages. If they'd had the money, as Mr. 
Jordan said, that would not have taken place at any level. 
Nobody wants to see children like that. Like my colleague Mr. 
Roy said, it can be solved by one sheet of paper, with curing 
the Flores amendment.
    I've been to the border, as Mr. Hice and many others. I've 
seen that Border Patrol agent jump down, arrest a fleeing 
alien, tackle him, not know whether he's going to be shot or 
live to see his children.
    I've seen that sheriff who had a dinner when he woke up at 
3 o'clock in the morning and 12 thugs were attacking him and 
shooting his house up.
    I've seen the families who have been robbed repeatedly. 
They've got their cars chained because of what the drug cartels 
are putting all those families through.
    So I appreciate your effort and appreciate you taking these 
kind of questions knowing that most of them are for politics, 
and it's behind this--these cabinets that we can fix this.
    On the--there has been a lot of confusion on who actually 
shows up for immigration hearings. Can you give some clarity on 
that?
    Secretary McAleenan. Sure. Yes. The appearance rates are a 
very important issue. Obviously, that's overseen by the 
Department of Justice Executive Office of Immigration Review. 
But they published a whole set of statistics to provide context 
on this recently on their website. I want to just offer the big 
picture and then a specific, you know, more recent stat of 
concern.
    Across all demographics, about 44 percent of those non-
detained removal cases end with a removal order in absentia. 
That means that, obviously, the migrant or alien did not show 
up for their hearing at the end of that process, so they got a 
final order from a judge when they were absent from the hearing 
room.
    For the recent border entrants, the people crossing now, 
and especially family units, the number appears to be 
significantly higher. We've worked on a pilot with the 
Department of Justice since last September, and in that pilot, 
it's called an expedited docket, out of 10 cities, 
unfortunately, about 58 percent of those cases' final orders of 
removal have been issued in absentia as well.
    So I want to--that's what we're dealing with on the 
appearance rates. The overall appearance rate of 44 percent in 
absentia; for the recent family cases that have been on the 
expedited docket, it's 85 percent.
    Mr. Norman. Thank you.
    And one other thing. You were--you've been very open and 
frank about the overcrowding conditions, and you were quoted in 
the media saying that certain claims were unsubstantiated. 
Which claims were you referring to?
    Secretary McAleenan. The Flores monitors' claims based on 
interviews, not actually going in the facility at Clint, where 
they said the children didn't have access to water, food, 
toothbrushes, and weren't being given showers for days on end. 
Those were not substantiated.
    Mr. Norton. That's unfair for whoever brings that up to 
even make that kind of claim.
    Again, thank you for what you're doing. I've seen Tom Homan 
break down in tears about the death that he's seen. So thank 
you.
    I yield the balance of my time to Mr. Roy.
    Mr. Roy. I thank the gentleman.
    Mr. McAleenan, just a couple quick questions in the minute 
that I have.
    I heard about empathy here today. My colleague discussed 
the individuals that have been saved. You said up to 4,000 
people, children or migrants, been saved by Border Patrol, yes?
    Secretary McAleenan. That's correct.
    Mr. Roy. In this fiscal year?
    Secretary McAleenan. Yes.
    Mr. Roy. Great empathy for those lives saved, yes?
    Secretary McAleenan. Right.
    Mr. Roy. Empathy for Jared Vargas, who was murdered in San 
Antonio, Texas, last summer by somebody who was here illegally, 
captured, released, captured, released. Murdered. His mother, 
Lori, a dear friend of mine, no longer has her son.
    Empathy for the people, at least the individual that I 
believe was murdered by allegedly by two Guatemalans. It was in 
the news today in Iowa.
    Border Patrol and ICE are on the front lines trying to 
prevent those who are here illegally from carrying out the 
kinds of crimes I just described. Is that right?
    Secretary McAleenan. That's correct.
    Mr. Roy. And oftentimes they're doing so without all the 
resources necessary. Is that right?
    Secretary McAleenan. Right.
    Mr. Roy. Thank you.
    Chairman Cummings. Thank you very much.
    Now we will move to Mr. Rouda.
    I want to thank you, Mr. Rouda, for managing the 
suspensions on the floor yesterday.
    Mr. Rouda.
    Mr. Rouda. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for coming today. And my thanks to 
ICE and DHS and all the hardworking men and women there who are 
trying to fulfill their mission on a daily basis in a very 
difficult situation, often in ways that they were not trained 
for, and I recognize that.
    I also agree with many of the members who are talking here 
about we need to get the rhetoric out of this, the rhetoric 
that you talked about in your opening statements, the rhetoric 
about build the wall and have Mexico pay for it. That type of 
rhetoric simply acts as a diversion from what we need to do.
    I do think most Americans recognize that this is a 
multifaceted issue, from beginning with the Northern Triangle 
countries, and the fact that the President has cutoff aid to 
those countries creates economic consequences that causes even 
greater levels of immigration.
    I do applaud the administration for working with Mexico to 
try and stop that immigration at that border. I also recognize 
that we need to have strong borders and ports and am willing to 
work with anybody across the aisle to accomplish that.
    But I also think all of us want to make sure that we have 
the appropriate response for a country as great as ours at the 
border to make sure that those who have come here are treated 
with dignity, respect, security, and safety.
    Mr. Secretary, I want to discuss a key finding in the 
committee staff's report. According to the DHS data, even after 
separated children were reunited with their parents, hundreds 
continued to be detained with their parents for weeks or months 
in so-called family detention. At least 380 children spent time 
in family detention. More than 300 were held for more than 20 
days past the legal limit. Some were held in detention for up 
to five months.
    Under the Obama Administration, there was a successful 
alternative for families seeking asylum that didn't have them 
in long-term detention, but President Trump canceled it. It was 
the Family Case Management Program, which we talked a little 
bit about earlier.
    That program had a 99 percent success rate, costing 
taxpayers $36 per day versus $319 per day to keep them locked 
up in detention. You said that that program wasn't successful, 
and I'd like to understand why. If you could elaborate very 
briefly on that, I would appreciate it.
    Secretary McAleenan. Sure. And thank you for your comments.
    The program wasn't successful because that's not the only 
measure of success. That appearance rate at an initial hearing, 
that's great. That's a start of a court process. But what we 
were looking for is consistent appearance rates, and if a final 
order of removal is issued, an actual result effectuated from 
that.
    Mr. Rouda. Can I ask you this, though? It says 99 percent 
of these recently released families represented by an attorney 
attended all immigration court hearings. And that data is from 
the Department of Justice. Are you disputing the data from the 
Department of Justice, or are they just simply wrong?
    Secretary McAleenan. I'm saying at this point we have 150 
orders of final removal, and none of those families have shown 
up to be removed from the United States at the end of the 
process.
    If they're not detained, there's a very difficult chance to 
effectuate that final order of removal. It ends up being an ICE 
officer going into a community to try to find that family.
    Mr. Rouda. So you are saying the data is wrong and the 
Justice Department's data is incorrect?
    Secretary McAleenan. I'm saying it's incomplete.
    Mr. Rouda. Incomplete.
    Secretary McAleenan. A successful program results in actual 
repatriations or a finding that somebody has a right to asylum 
or an immigration right to stay in the United States.
    Mr. Rouda. So let me ask you. When that decision was made, 
who made that decision to cancel that program?
    Secretary McAleenan. I don't know. At the time, I was at 
U.S. Customs and Border Protection.
    But we do have appropriations language and funding this 
year, and we're looking at how to redesign the program so that 
it could be effective throughout the entire process.
    Mr. Rouda. So you're not--you have no idea who made that 
decision. You have no idea if there were any conversations, 
memorandums, or otherwise that talked about what the 
implications would be if that program was canceled and how it 
might be use as a determent for people coming to our southern 
border?
    Secretary McAleenan. No, I don't, as I sit here today.
    Mr. Rouda. Okay. I'd also like to ask you that--one of the 
challenges we've had is having enough people to be able to 
administer the needed services, both in border protection as 
well as addressing the needs of those who have made it to the 
southern border.
    As of March, there was 2,000 open positions in the CBP. Is 
that correct?
    Secretary McAleenan. In terms of the Border Patrol levels, 
yes. We were down almost 2,000 from our authorized--not 
necessarily our appropriated levels--and we're aggressively 
pursuing hiring of additional agents.
    Mr. Rouda. So we just approved funding for additional 
people and additional beds, but to some degree there was 
already an existing backlog of over 2,000 positions that 
haven't been filled. Can you help us understand why we need 
more people--and, arguably, we do--when we haven't even filled 
the 2,000 vacancies that have been vacant for quite some time?
    Secretary McAleenan. Supplemental funding doesn't provide 
new positions for CBP or ICE, in my understanding. There's some 
salary funding.
    But we've improved our hiring over the last several years. 
We ended the year with a net gain last year in Border Patrol 
agents, and we're going to do so again this year, despite the 
shutdown, despite the politicization of their mission, which is 
challenging from a reciting perspective. But it's something 
we're working on aggressively.
    But the humanitarian crisis is immediate. So the funding 
that we're getting, we're applying both in facilities, medical 
care, transportation, and contracts to augment our ability to 
care for people in our custody right now and get law 
enforcement agents doing their duties on the border.
    Mr. Rouda. Thank you, Mr. Secretary.
    I yield back, Mr. Chairman.
    Chairman Cummings. Thank you very much.
    Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman.
    Thank you for your testimony, Mr. Secretary.
    Today has been interesting because I've seen some of my 
colleagues on the other side of this particular room actually 
come together in a way that I have not seen in previous 
hearings. So I want to thank you for being straightforward, 
giving us the facts.
    One of the facts that I found out the other day that was 
very troubling to me is how there are actually cards and 
directions that are given to people trying to come into our 
country to actually tell them how to use children to circumvent 
our laws. Is that correct?
    Secretary McAleenan. We've seen all manner of smuggling 
organizations communicating to potential customers and to those 
crossing the border how to bring a child with them to be 
allowed to stay in the United States, yes.
    Mr. Meadows. So would you say that there is a coordinated 
effort among some south of our border to actually exploit 
children to circumvent U.S. laws?
    Secretary McAleenan. Absolutely. I've got a document full 
of individual cases that have been identified by his through 
their interviews and their DNA testing, and almost every single 
summary says something to this effect: The subject stated that 
he made the attempt because he heard in his hometown that 
anyone traveling to the United States with a child will be 
released.
    Mr. Meadows. Well, I've looked at some of those documents 
because it's very--it really bothers me, because I saw the cost 
of purchasing a child, and we're talking about $160, $84 in one 
case, $250. And when you can buy a child in some of these 
countries to use them, they become not only trafficked, but 
used over and over again.
    Have you found that some children are actually recycled in 
this process?
    Secretary McAleenan. Absolutely. I mean, July 17 of last 
year I talked about the crisis at the border, over a year ago, 
and what I highlighted was that the vulnerabilities in our 
legal framework were incentivizing smugglers and families to 
put children at risk.
    The recycling problem is maybe the worst manifestation of 
that. We have three ongoing cases, significant cases that ICE 
is managing, where a small group of children, five to eight in 
each case, have been used by dozens of different adults to 
cross our border, seeking release into the United States.
    Mr. Meadows. All right. So let me ask you a question, 
because Mr. Roy brought it up, and I believe Mr. Jordan brought 
it up, and even I think Ms. Speier brought it up from the other 
side.
    If we were to appropriate money and allow you to keep 
families together when they come across--and one of the things, 
it was a brother and a sister, I believe, that Ms. Speier was 
talking about--but if we appropriated the proper amount of 
money to make sure that we keep family units together, we 
address Flores to allow them to stay there, would that help 
solve the problem where this trafficking of kids is not 
necessarily eliminated but substantially reduced?
    Secretary McAleenan. That single change would make the 
biggest possible impact not only on the flow, but on protecting 
children.
    Mr. Meadows. So I'm hearing you right--I want to make sure 
I'm clear because I've had some of my other colleagues that 
when the cameras are not rolling they're willing to work on 
this, and I think it's important on this committee to address 
this issue, and I think we've got an opportunity to address it.
    There's going to be a budget caps deal, and that budget 
caps deal will probably be voted on before we leave here in 
August. And what you're telling me, if we address Flores and 
appropriate, how many billion dollars would you need to build a 
facility to make sure that we can keep families together and 
keep kids safe?
    Secretary McAleenan. So actually it was in the hundreds of 
millions range, and it was requested in the supplemental to----
    Mr. Meadows. So you're saying it's not even billions of 
dollars.
    Secretary McAleenan. No, because what we find very quickly 
is a response. If people are not successful in coming with a 
child being released, you're actually getting a decision from 
an immigration judge resulting in repatriation for the vast 
majority, that would mean that others would not try to come.
    Mr. Meadows. So we don't have to change our asylum laws, we 
don't have to change anything about sanctuary cities, we can 
make kids safe. If we address Flores and give you less than a 
billion dollars, we can keep families together and we can keep 
kids from being trafficked.
    Secretary McAleenan. In an appropriate setting and a fair 
and expeditious proceeding.
    Mr. Meadows. Well, let me just say this, Mr. Chairman. You 
know that this matters to me because I joined you on that 
letter over a year ago. I will say this. That request is still 
out there. I have some other recommendations. Because we want 
to make sure that we're seeing this and that we actually 
provide oversight. But I think it's time for us to come 
together, and let's do it in the next seven days.
    I'll yield the balance of my time to the ranking member. I 
saw he had a comment.
    Chairman Cummings. Five seconds.
    Mr. Jordan. Mr. Chairman, you've had 13 minutes. I got--we 
all--the rest of us got five minutes, and you get 13? You're 
going to limit me to five seconds?
    Chairman Cummings. I'll give you a minute. Go.
    Mr. Jordan. I appreciating the gentleman's words from North 
Carolina. I think he's right on target. And as the Secretary 
said, it would be immediate, immediate results, and immediate 
better care and safety for these kids.
    Mr. Secretary, when's the last time you were at the border?
    Secretary McAleenan. Yesterday.
    Mr. Jordan. Yesterday. You know exactly what's going on. 
You've got the most recent knowledge of anyone in this room, 
probably more--and more experience in this area than anyone in 
this room.
    So just a few minutes ago, Mr. Norman asked you about some 
claims that have been made about conditions down there, and I 
think your response was they were unsubstantiated. Does that 
mean not one single person that you talked with who works in 
your agency could confirm some of the things that have been 
said, like kids don't have toothbrushes, kids are drinking out 
of toilets, all these other statements that have been made, not 
one single person could confirm those things? Is that accurate?
    Secretary McAleenan. So in terms of toothbrushes, that's 
accurate, yes. Drinking out of toilets, that's accurate, yes.
    Mr. Jordan. Totally unsubstantiated.
    Secretary McAleenan. That's correct.
    Chairman Cummings. The gentleman's time has expired.
    Mr. Jordan. All right. Thank you.
    Chairman Cummings. Thank you very much.
    Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    Secretary McAleenan, the nonprofit law firm Americans for 
Immigrant Justice has conducted numerous interviews with kids 
who have been processed through CBP facilities at the border. 
There are children, multiple children, who have reported to AIJ 
that CBP officers punished them for no discernible reason. It's 
not punishment, it's abuse.
    Secretary McAleenan, I want yes-or-no answers to these 
questions because these are very simple questions.
    First, kids reported being forced by CBP officers to kneel 
on concrete floors for extended periods of time. Are CBP 
officers permitted to force children to do this?
    Secretary McAleenan. No.
    Ms. Wasserman Schultz. Kids reported being forced to stand 
in front of air vents in very cold rooms. Are CBP officers 
permitted to force children to do this?
    Secretary McAleenan. Of course not.
    Ms. Wasserman Schultz. Kids reported CBP officers kicking 
them awake every few hours while they are lying on the floor 
trying to sleep at night. Are CBP officers permitted to prevent 
children from sleeping by kicking them awake?
    Secretary McAleenan. No. And any allegation with 
specificity----
    Ms. Wasserman Schultz. Yes or no----
    Secretary McAleenan [continuing]. will be investigated and 
followed through on.
    Ms. Wasserman Schultz. Yes or no will suffice.
    Kids reported officers withheld food and water to the point 
that teenage mothers have been unable to produce milk to breast 
feed their kids. Are CBP officers permitted to withhold food 
and water from children?
    Secretary McAleenan. Not from anyone in our custody.
    Ms. Wasserman Schultz. A majority of kids who spoke to AIJ 
reported CBP officers treat them like animals, literally 
calling them animals, and told kids they're dirty and never 
should have come here. Are CBP officers being trained to call 
kids animals and dirty?
    Secretary McAleenan. Verbal abuse will not be tolerated. It 
will be investigated if we can get a specific allegation.
    Ms. Wasserman Schultz. Are they being trained to call kids 
animals and dirty?
    Secretary McAleenan. Of course not.
    Ms. Wasserman Schultz. Okay. Secretary McAleenan, advocates 
are hearing these reports directly from child after child after 
child. These aren't one-off accusations. These are consistent, 
broad-based accusations from the majority of children that AIJ 
lawyers are interviewing. That denotes a systemic problem, and 
that denotes a tolerated culture of abuse.
    So I need a yes-or-no question--a yes-or-no answer to this 
question. Will you commit today to immediately order an 
investigation into these allegations of abuse of migrant youth? 
There are far too many reports. I'm sorry, but doing a here-
and-there review of whether some of these reports mentioned 
today you can unequivocally say are unsubstantiated, unless 
you've done a comprehensive investigation, you can't 
unequivocally say that.
    So will you make that commitment to do this investigation 
today?
    Secretary McAleenan. Any specific allegation that we can be 
given will be followed through on and investigated fully.
    Ms. Wasserman Schultz. Okay. There are lots of specific 
allegations, and I am asking you today, because we have a pile 
of them, will you commit to immediately order an investigation 
into these allegations of abuse of migrant youth?
    Secretary McAleenan. Any specific allegation will be 
investigated immediately.
    Ms. Wasserman Schultz. Okay. There are multiple--so if I 
give you----
    Secretary McAleenan. Yes.
    Ms. Wasserman Schultz.--specific allegations, you will 
commit to doing an investigation.
    Secretary McAleenan. That's correct. We do this routinely. 
And we've built relationships with advocacy groups----
    Ms. Wasserman Schultz. Okay.
    Secretary McAleenan [continuing]. so if they come across a 
case, they can refer it to us.
    Ms. Wasserman Schultz. Reclaiming my time because I want to 
get to my next question. Thank you for commitment, and we'll 
make sure we get those to you.
    Secretary McAleenan. I can give you some more context, 
though, on how we're working these issues.
    Ms. Wasserman Schultz. No. I have another question that I 
want to make sure I ask you.
    A 15-year-old boy was just reunited with his family. He has 
lived here since he was nine months old but was taken from 
family members at a traffic stop and sent to Homestead 
Detention Center as an unaccompanied minor. He went without a 
shower and toothbrush while he was detained for five days. His 
mom didn't know where he was. His mom was in the United States 
just two hours away when he was apprehended.
    Yes or no, do you agree that this is a violation of the 
statutory definition of unaccompanied minor?
    Secretary McAleenan. I'd have to say the details of this 
case.
    Ms. Wasserman Schultz. I'm sorry. You know the details of 
this case. It was in the newspaper.
    Secretary McAleenan. I don't.
    Ms. Wasserman Schultz. You should be very familiar with it.
    Secretary McAleenan. I don't, but I can tell you----
    Secretary McAleenan. It is tiresome that every time you're 
asked a detailed question, and you did this in the Homeland 
Security Appropriations Subcommittee, Mr. Secretary, you never 
seem to be able to answer or bring answers to detailed 
questions to hearings when you're--when requested.
    Secretary McAleenan. We followed up with a briefing for you 
with all the details of that question.
    Ms. Wasserman Schultz. Let's not even get into the briefing 
you followed up with me on. That was unacceptable.
    You don't know anything about the case I'm talking about?
    Secretary McAleenan. I'm not going to comment on specific 
cases----
    Ms. Wasserman Schultz. Okay.
    Secretary McAleenan [continuing]. here today.
    Ms. Wasserman Schultz. How many children--reclaiming my 
time--how many children have been apprehended in the interior 
of the United States who don't meet the statutory definition of 
a UAC and placed into detention with true unaccompanied minors?
    Secretary McAleenan. So I'm not confirming that there's any 
mistakes on following the statutory definition----
    Ms. Wasserman Schultz. Oh, no. There are.
    Secretary McAleenan [continuing]. of unaccompanied child, 
but I'd be happy to look at individual cases that you would 
refer.
    Ms. Wasserman Schultz. No, I'm not going to refer 
individual cases to you. I want an answer. I want you to look 
into how many children have been detained by your agencies who 
don't meet the statutory definition of unaccompanied minor and 
have been housed with true unaccompanied minors. I want an 
answer to that question and the number.
    Secretary McAleenan. So are you suggesting that an 
unaccompanied child that has a parent somewhere in the U.S. is 
not unaccompanied?
    Ms. Wasserman Schultz. Yes. I will read you the statutory 
definition, because it specifically says: As used in this 
section, the term placement means the placement of an 
unaccompanied alien child in either a detention facility or an 
alternative to such a facility, and the term ``unaccompanied 
alien child'' means a child who, A, has no lawful immigration 
status in the United States, B, has not attained 18 years of 
age, and with respect to whom there is no parent or legal 
guardian in the United States or no parent or legal guardian in 
the United States that's available to provide care and physical 
custody.
    Someone who is nine months old, whose mother is two hours 
away, does not meet the statutory definition of UAC. Wouldn't 
you acknowledge that?
    Secretary McAleenan. I would have to look at the specific 
details of that case.
    Ms. Wasserman Schultz. Come on.
    Secretary McAleenan. But I'm saying the suggestion that any 
parent in the U.S.--you know, being considered an accompanied 
child would have implications.
    Ms. Wasserman Schultz. Mr. Chairman, I know you're tapping 
me.
    I would like a commitment from you, Mr. Secretary, that you 
are going to get us the number of UAC--of children you've 
detained that don't meet the statutory definition.
    Chairman Cummings. The gentlelady's time has expired.
    Ms. Wasserman Schultz. Can he answer?
    Secretary McAleenan. I'm happy to follow-up on your 
request. Formally submit it.
    Chairman Cummings. Mr. Secretary, Ms. Wasserman Schultz 
just gave you a whole list of cases and incidents, and one of 
the things that you said was that you would look into it and 
that if there were such cases--and I'm not trying to put words 
in your mouth, so correct me--that you would look into them. 
I'm just curious, are there such investigations going on now? 
Do we----
    Secretary McAleenan. Yes. Thank you for asking.
    So we created, through our Office of Intergovernmental and 
Public Liaison at CBP when I was acting and then commissioner, 
direct relationships with advocacy groups that were bringing 
forward allegations so they could be referred.
    Those are being followed up on through our Office of 
Professional Responsibility. We've closed out dozens of 
investigations. Many were unsubstantiated, but some resulted in 
discipline of officers and agents who hadn't handled the cases 
properly.
    This is an ongoing effort that we want to make sure we're 
holding ourselves accountable to the highest standards, to our 
legal requirements, and to our standards of conduct.
    So if we do get specific cases, we will follow-up on those, 
and that's a connection that we built when I was in CBP.
    Chairman Cummings. You are committing to that right now.
    Secretary McAleenan. Yes.
    Chairman Cummings. Is that right, sir?
    Secretary McAleenan. Any specific allegation will be 
followed up on, Mr. Chairman. Absolutely. That is our 
responsibility.
    Chairman Cummings. Thank you. Thank you very much.
    Mr. Grothman.
    Mr. Grothman. Thank you very much.
    First of all, Mr. McAleenan, I'd like to thank you for 
being here today. It's unfortunate it's a fly out day, and as 
you can see, a lot of Congressmen are missing your fine 
testimony. I would love it if sometime in the future we could 
have you come here again, because five minutes really isn't 
enough to ask you the questions we have, and, unfortunately, 
too many people aren't here.
    I've been at the border twice myself. I think you guys are 
doing a tremendous job. I couldn't help but be impressed by the 
professionalism that your staff showed and the high morale they 
had despite some people saying there wasn't a crisis at the 
border. I know your people have done all they can to educate 
the public there was a crisis at the border.
    Now, one of the things that intrigues me is sometimes 
children are coming here with people who are not their parents, 
and I compare it to how we treat children in American society. 
You know, if one parent tries to grab the child away from other 
parents, we have court hearings, we have all sorts of hoopla. I 
think we would never stand for an aunt or uncle grabbing a 
child away when the parents are far away.
    Could you elaborate a little bit on the concern of children 
being here who somebody purports to say is their parent but 
turns out isn't a parent or relative? Is this a concern?
    Secretary McAleenan. It's a concern, obviously, for the 
safety and welfare of the child to make sure they're with a 
parent or guardian, but it's also the legal requirement under 
the Trafficking Victims Reauthorization Protection Act. That's 
an essential inquiry that our agents are making at the border 
to try to determine if the adult crossing purporting to have a 
child with them is the actual parent or guardian. 
Unfortunately, we're finding in too many cases that's not the 
case.
    Mr. Grothman. How do you find out?
    Secretary McAleenan. So a couple of different ways. One, 
our Border Patrol agents, when they have the time and space to 
do good interviews and questioning, often determine either 
through the answers, through the presentation of the documents, 
that there might be fraudulent birth certificates involved, or 
the behavior of the child, looking uncomfortable with that 
adult.
    We've now expanded this practice with 400 special agents 
from his alongside our Border Patrol agents doing more in-depth 
interviews. They have done about 2,500 so far and found out 
that almost 15 percent of those cases they were actually 
presenting a fraudulent family.
    Mr. Grothman. That's shocking. Do the cartels who are just 
the epitome of evil, do they do anything to encourage this sort 
of behavior?
    Secretary McAleenan. Absolutely. They've been active in 
advertising literally on Facebook and in the radio in Central 
America that if you bring a child with you, you're going to be 
released in the U.S. There's a whole fake document operation 
really in all three countries. We have identified 900 fake 
documents in just the first eight weeks of Homeland Security 
Investigations doing this in-depth interview.
    Mr. Grothman. When children come here, are they purchased 
or kidnapped?
    Secretary McAleenan. We've seen all of the above. We've 
seen rentals, purchase, kidnap, delivery to a relative or 
parent in the U.S., and outright human trafficking.
    Mr. Grothman. You said sometimes you do DNA testing. Is 
that right?
    Secretary McAleenan. We started a pilot earlier in my 
tenure, in the first few weeks of my tenure, where we did about 
109 DNA tests at the border. Again, a 15 percent return rate on 
either people admitting that's not my child, including a 51-
year-old who bought a six-month-old for $80 in Guatemala. It's 
a real concern. We want to expand our DNA testing coverage with 
the new rapid DNA technologies that are coming out.
    Mr. Grothman. Okay. One other concern, which I think may be 
a difficult thing for you to worry about, though I was 
concerned about it when I heard testimony, previous testimony.
    In America we go through a great deal to make sure that 
something doesn't happen to a child if one parent would object. 
It occurs to me that if somebody shows up, even if it is their 
child, do we know if the other parent is there, whether that 
parent is agreeing to allow this child to be brought in the 
United States?
    Or if a child shows up and is eventually given to somebody 
who purports to be their aunt or uncle, which, as I understand, 
was going on, do we have any legal way of knowing if this is 
right, or for all we know, we may have a situation in which one 
parent is absconding with the child without the other parent 
knowing.
    Secretary McAleenan. So we do have concerns that that could 
be happening, and they're even heightened more gravely when we 
have an unaccompanied child who is coming to the border, often 
had a smuggler paid by a parent who is here in the United 
States.
    I don't think most people realize that most of these 
unaccompanied children are being released to parents or 
relatives in the U.S. who are also here unlawfully, who may not 
have permission to work in the United States, and yet, these 
children are being released as sponsors in the U.S. under the 
operation of law and restrictions placed by Congress in the 
current appropriations and supplemental.
    Mr. Grothman. And the default is to allow them in the 
country even though maybe another parent somewhere else would 
have wanted that child to stay with them?
    Secretary McAleenan. Correct. We've had all three 
Ambassadors from the Northern Triangle countries assert that 
those governments should have some say in what happens to that 
unaccompanied child.
    Mr. Grothman. Oh, absolutely. I mean, if they're ignoring 
the wishes of the courts in Central America, I mean, that's 
just appalling.
    Well, I'd like to thank you for being here again. I intend 
to go back to the border, to go back to El Paso within a couple 
weeks and talk to your folks again. And I encourage my 
colleagues to go down to the border and see what a fine job 
you're doing despite being under-funded by Congress.
    Chairman Cummings. Thank you very much.
    Secretary McAleenan. You'll see a dramatic improvement in 
the situation in El Paso, from 5,000 in custody to 500 today.
    Chairman Cummings. Ms. Hill.
    Ms. Hill. Thank you, Mr. Chairman.
    So I completely rewrote my question line because I think we 
just need to acknowledge across the board this is hard. This is 
a hard thing for us to be tackling. It is something that 
Americans can't agree on and that we as policymakers can't 
agree on. In the meantime, people are hurting in so many 
different ways.
    Regardless of politics on this issue, I don't believe that 
anyone looks at the pictures of children in cages and feels 
good about it. I don't think that anyone looks at those 
pictures and feels proud to be an American. I'm guessing you 
don't, either, and neither do those Border Patrol agents who 
feel a major dissonance between what they signed up to do and 
what they have to do now.
    This is an emotional issue for everyone, but the more we 
grandstand, the fewer options we're left with.
    If someone showed up at my door asking for help, I'm glad 
to know that I have a doorbell. I'm glad to know that I'm the 
one who gets to make the decision if that person is there 
legitimately in need or if they're there to rob me or do me 
harm, because it's my house and it's my door.
    Border Patrol agencies should provide the function of 
guarding the door, but they shouldn't be the ones who are 
caring for kids, in the same way that if someone comes to my 
house bleeding, I'm not going to be the one who pulls out a 
suture kit and gives them stitches. I'm going to take them to 
the hospital or call the paramedics.
    I hope we can agree that once we do know that people aren't 
trying to rob us or do us harm, that they can be treated and 
should be treated with the dignity and grace of the United 
States of America. But let's be real, it's not the Border 
Patrol agents who should be doing that job.
    Mr. Secretary, I think you know as well as I do that we're 
in this reality of a severely divided government that reflects 
a country that's divided, too, and our democracy is a simple 
reflection of the will of the people.
    There are people in this room who believe we need to 
abolish the law enforcement agencies at the border, and there 
are people in this room who believe that no matter what the 
circumstances, we should keep our doors closed to everyone. Of 
course the President's policies and remarks reflect that same 
belief.
    But the vast majority of Americans are somewhere in 
between, and we're trying to figure out how we uphold our 
values. I think that that's something that you probably 
struggle with and the Border Patrol agents struggle with.
    So how do we greet a family in need at our door and still 
make sure that we're safe in our home when they step into it? 
How do we do everything that we can to make sure that the kids 
that are being brought here are not being abused by people who 
are seeking to take advantage of our American values of helping 
families?
    I appreciate my colleague Mr. Meadows' desire to work on 
some immediate solutions, because I think we can't not, but I 
don't think that with a Democratic majority in the House we're 
ever going to get rid of the Flores settlement, because I don't 
think it's a solution to keep kids locked up longer even with 
their parents. But I do want to talk about how we can make sure 
that people make it to court. And we're also not going to put 
more money in detention beds when people continue to see the 
images that make us sick to be Americans.
    So what do we do? This is my question to you. Knowing the 
reality is not probably what you would want it to be in terms 
of what's going to happen, what can we do that's somewhere 
right now that is going to get fewer kids to be in those kinds 
of situations, that's going to make an impact at the border, 
and is just acknowledging the simple reality of what we could 
actually pass here and now with the kind of divided government 
that we have?
    Secretary McAleenan. So I guess I don't want to accept yet 
that the better system that we had before in the prior 
administration, having families kept together for 40 to 50 days 
in a campus-like setting, in a family residential center, with 
education, recreation, medical care, and courtrooms right there 
onsite, is not something that the Congress could consider in 
this environment.
    Ms. Hill. So is there a way that we could even learn more 
about this kind of campus setting? Is this something that we 
have--that we could, you know, even begin to propose to people 
that, you know--I mean, like, I don't think that people 
understand that there could be a difference----
    Secretary McAleenan. Right.
    Ms. Hill [continuing]. right, between what we've been 
seeing. Right now, these are the images that are stuck in 
people's minds. So, you know, if you're describing something 
different, I mean, listen, that doesn't sound crazy, but it 
also isn't what people think is really going to happen.
    Secretary McAleenan. I think we could have a meaningful 
conversation. First of all, I would invite you to visit one of 
our family residential centers in Dilley or Karnes, Texas. But 
also, if there could be a dialog about how to do this better, 
there could be a dialog about even improving the standards that 
exist there if we could get the funding to do so.
    I think that's the right way to handle this. We're not 
seeing successful results in immigration cases when anyone is 
released from the detained custody, but especially for 
families. They're more likely to cutoff their bracelets, 
they're less likely to show up for hearings, they're less 
likely to respond to a final order of removal.
    So being able to address that at the border in an expedited 
and fair way with due process is a much better solution than 
what we're doing now.
    Ms. Hill. So if we're doing that at the border, are there 
agencies--and I realize money has to be a huge part of the 
solution. There's no way around that. But if we're doing that 
at the border, let's assume that CBP is going to play a role in 
it, but do you think that there needs to be involvement of 
other agencies, community-based providers, things like that?
    Because I also, you know, I think case management needs to 
be part of it, too. And if we don't come to some kind of a 
place where it's extending the time for the Flores settlement, 
then how do we make sure people still show up to court?
    Secretary McAleenan. I think there could be a meaningful 
discussion about how to accommodate concerns and interests that 
both parties would raise and how to do this right.
    Ms. Hill. So what do you think is the next step to make 
sure that we actually have that meaningful discussion?
    Secretary McAleenan. So Department of Homeland Security has 
provided the technical assistance to Congress on the way that 
they would like to structure that, and there's a discussion 
going on in the Senate Judiciary Committee. It would be great 
if we could start one here in the House as well. I'd certainly 
be willing to work with any Member who wants to have a serious 
dialog on these issues.
    Ms. Hill. Thank you. I yield back.
    Chairman Cummings. Mr. Armstrong.
    Mr. Armstrong. Thank you, Mr. Chairman.
    I actually agree, in talking about the reality. But I think 
one thing that happened, we talked about earlier, and we have 
to also be able to educate people on how the things work, how 
the world works, particularly in the areas of where these 
people are coming from.
    We know this because there are many who think that just 
being from El Salvador, Guatemala, or Honduras should make sure 
that you immediately qualify for asylum, and we know that is an 
argument. But then at the same time as we're working through 
this, and we heard this last week in the hearing, too, we hear, 
like, unsubstantiated claims of criminal activity.
    Well, Honduras is one of the--I mean, is an incredibly 
violent country. It has one of the most corrupt governments in 
the entire world. Their criminal justice system is directly 
connected--I mean, their entire government elite and power 
people and different cartels.
    Guatemala is controlled in a lot of ways at all levels of 
government by powerful criminal organizations. Their criminal 
justice system is flat-out inept, and I can't even find 
statistics on it.
    In El Salvador, 92 percent of the crimes go unpunished.
    So when we're talking about this, I'm assuming when you 
have somebody come to the border and you are doing this, you 
don't call the clerk of court in El Salvador and do a criminal 
history check. Is that correct? I mean, I'm assuming you do do 
that, but that's not the end of the inquiry.
    Secretary McAleenan. We don't call the clerk of the court, 
but we have a relationship with the national police in El 
Salvador and do share information with them.
    Mr. Armstrong. But so criminal convictions in and of 
themselves, though, I mean, how many of the cartels are 
directly connected to the governments in those countries?
    Secretary McAleenan. So I don't want to cast broad 
aspersions on the governments or connections to organized 
crime. The cartels are not as present in those three countries. 
They're more violent gang activity. And, frankly, in the last 
five years they've all made significant strides in reducing 
violence, 40 to 70 percent reduction in murder rates in three 
countries.
    So it's a little bit more complex than just kind of 
painting a broad brush on all three governments.
    Mr. Armstrong. But that's what I'm saying. You don't treat 
it as a normal criminal justice inquiry. You use your allies 
and other----
    Secretary McAleenan. Sure. It's not dispositive. Again, we 
make judgments based on our direct interaction, our liaison and 
attache personal in country who work alongside these law 
enforcement agencies. Many of the programs that we get 
information from are actually supported by State Department 
International Narcotics and Law Enforcement Bureau. So that 
gives us greater comfort when we're using different pieces of 
information from partners.
    Mr. Armstrong. And you're confident in the intelligence 
gathering you do in these scenarios?
    Secretary McAleenan. Again, no blanket statements----
    Mr. Armstrong. Yes.
    Secretary McAleenan [continuing]. but in these scenarios 
when we're trusting that information, it's because we've vetted 
the process and have a program and a relationship that we think 
we can verify.
    Mr. Armstrong. Then I'm going to piggyback off the last 
question, except I'm not going to place it in you having to 
deal with the partisan nature of Congress. I just want to ask 
you, what are three concrete steps Congress could do right now 
to help the situation at the border?
    Secretary McAleenan. The three things in the dialog that I 
just had with Congresswoman Hill. The Trafficking Victims 
Protection Reauthorization Act.
    We've offered a process, the administration in January and 
again in May, one of my first weeks as Acting Secretary, a 
process where children could seek protections safely from their 
home country or a neighboring country. But we would have the 
balance of being able to repatriate those children who arrived 
at our border if they did not meet those standards or didn't 
avail themselves of that process.
    And the third is a modest change to the credible fear 
standard as we assess asylum claims from a standard which 85 to 
90 percent of people are clearing to a more rational connection 
to the ultimate result from an immigration judge.
    Those are the three major authorizing changes that we're 
looking for from Congress.
    Mr. Armstrong. All right. Thank you.
    Then with that, I yield to the ranking member.
    Mr. Jordan. I thank the gentleman for yielding.
    Mr. Secretary, Ms. Hill said in her comments that she 
doesn't think the Democrats are going to be willing to change 
Flores. You said you don't want to give up hope on actually 
making that change because that's at the heart of the problem, 
right?
    Secretary McAleenan. Correct.
    Mr. Jordan. Let's hope that they can work together and we 
can change the Flores decision, because if you don't nobody's 
going to show up, right? You used the number earlier, 150 to 
zero, right? What was that number about?
    Secretary McAleenan. So that was the final orders of 
removal under the Family Case Management Program that have not 
been effectuated. None of those who have gotten the final order 
have shown up for their removal.
    Mr. Jordan. So if we don't change Flores and you have to 
release families, they're never going to show up for their day 
in court where we could determine if they're here legally, and 
if they are, they're going to get a stay. They're just not 
going to show up unless we can deal with this Flores decision. 
Is that right?
    Secretary McAleenan. Right. And it puts ICE in the position 
of having to go into communities to effectuate the final orders 
from judges.
    Mr. Jordan. When would be much better to keep them in the 
facilities you described, where families stay together, and 50 
days later, within 50 days, they actually sit down in front of 
a judge, they hear all the case, everyone gets their due 
process which they're entitled to, and a decision can be made, 
and families stay together the entire time. But they don't want 
to fix that. They don't want to change that.
    Chairman Cummings. Thank you very much.
    We will have next Mr. Khanna.
    Mr. Khanna. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here.
    I want to focus on some basic facts. I hope you'll answer 
the questions not as a political appointee but in the spirit of 
when you were at the University of Chicago.
    When the zero tolerance policy was being planned, at any 
point did anyone in the room ask how will the parents and 
children come together afterwards?
    Secretary McAleenan. I mean, I was not in every room where 
every conversation about increasing these prosecutions was had, 
so----
    Mr. Khanna. And to paraphrase Lin Manuel Miranda, you were 
probably in the room where the decisions were being made, 
right?
    Secretary McAleenan. Interesting paraphrase. On April 19, 
between the Attorney General's decision letter about expanding 
to all amenable adults crossing the border and the actual 
implementation of zero tolerance by the Department of Homeland 
Security, CBP, working with HHS, made changes to its system to 
identify better the relationships between the adult and child 
crossing the border. So that conversation was had, and we did 
make system modifications to address it from the CBP 
perspective.
    Mr. Khanna. You recommended--you had a process in place of 
how these kids would be reunited that you recommended?
    Secretary McAleenan. On how he would effectively capture 
the data so that they could be later in the process.
    And again, the belief was that the adults would be 
prosecuted, they'd complete their immigration proceedings, HHS 
would have the child during that time and make the sponsorship 
decision to reunite them at the appropriate point in the 
process.
    Mr. Khanna. So what went wrong? I mean, why where they not 
being able to be reunited if you had this process in place?
    Secretary McAleenan. So I had a colloquy with the chairman 
on this a little bit earlier. I mean, if you go back and look 
at the Ms. L. court filings, again, very early in this process, 
before these different parts had concluded, the HHS sponsorship 
checks or the ICE and immigration court process for the adults, 
I mean, a matter of weeks, based on the data we had in our data 
base, the data that ICE had in theirs, the data that HHS had in 
theirs, put all together in spreadsheets and worked manually by 
a team, those reunifications were able to be made.
    And at this time, every single child has had their parent 
identified and has either been reunited, or there's a decision 
made that they can't be for child welfare issues, or the parent 
has decided not to be reunited.
    Mr. Khanna. Your testimony is there's not a single child 
who hasn't been reunited or hasn't been--where their parents 
haven't been identified?
    Secretary McAleenan. They've identified a parent in every 
case, and they've taken the appropriate action, in concert with 
the plaintiffs in the Ms. L., as specified in the court filings 
that happen every two weeks in this matter since last June.
    Mr. Khanna. Let me ask you this. In a self-reflective 
moment, are you proud of how this whole situation has happened, 
or do you have some regrets?
    Secretary McAleenan. I've testified, I've answered the 
question in the media multiple times. This program, we lost the 
public trust. I think the President was right to end it. And if 
I could go back and redo it, I would.
    Mr. Khanna. How about beyond the program, I mean, in terms 
of how we're treating the kids. I mean, I know you're blaming 
Congress, Congress is partisan.
    But when you reflect, I mean, look, you had a distinguished 
career before coming into government service, and you look at 
your tenure, what would you say? Where do you think you've 
fallen short?
    Secretary McAleenan. You know, that's a big question. It's 
been a couple decades here responding after 9/11 to try to help 
protect the country and serve at CBP and the Department of 
Homeland Security. It's been a huge honor. I think we've 
accomplished a lot in that timeframe.
    I'd like to go back to 2014 and 2015 when the Flores court 
changed the rules after we made the difficult decision. Jeh 
Johnson made a hard decision to create family residential 
centers and detain families, but it was the right decision 
because it stopped the crisis. It reduced the flow.
    There was a gap there where the flow was down where we let 
that decision stand as a government, as the executive branch. 
We didn't work with Congress in advance of the next crisis. We 
faced another one around the election in 2016. And here we are 
today----
    Mr. Khanna. Let me ask you that because you've testified--
--
    Secretary McAleenan [continuing]. with a scope even well 
beyond that.
    Mr. Khanna [continuing]. that these border facilities are 
not adequate for children to be there. I mean, you've testified 
before. You've been with the Department since 2014, and you are 
testifying that you anticipated we could have a surge again.
    Did anyone--did you ever raise that maybe we should 
retrofit some of these buildings or that we should design these 
buildings in a way that would be hospitable for kids?
    Secretary McAleenan. So when the system works properly, 
when Health and Human Services has adequate resources to deal 
with the flow, the time that children spend at the border is 
very short. It can be 24 to 30 hours. That works pretty well.
    To rebuild the entire border infrastructure is challenging. 
El Paso, for instance. Two years ago, El Paso was one of the 
lowest sectors in terms of crossings on the border. This year 
they've had a twenty-fivefold increase in family units 
crossing, a 500-plus percent increase in unaccompanied 
children. That was a sea change that could not have been 
anticipated in that location. So what's better is to have the 
process work so those kids can go very quickly to HHS.
    Mr. Khanna. I'm out of my time.
    Chairman Cummings. Mr. Green.
    Mr. Green. Thank you, Mr. Chairman, Ranking Member.
    And, Secretary McAleenan, thank you for coming today and 
for your testimony.
    Last week I talked and shared from my perspective as an 
emergency medicine physician about, you know, just trying to 
give people perspective about what's happened at the border. 
And I think that repeating the analogy will be helpful.
    Imagine you're working in an emergency department and a 
natural disaster occurs, let's say it's an earthquake, or maybe 
something as bad as 9/11. There are thousands of patients that 
are now rushing into the emergency department. The ER is 
completely overwhelmed. There's patients in the hallways that 
are being treated. They're in the parking lots. Doctors are 
running from place to place.
    It's not the physicians' fault that that scenario has come 
upon them. It's not the nurses' fault. And I would submit that 
that's the kind of crisis that you're experiencing at the 
border this year, this calendar year particularly, one that no 
one could anticipate, and the systems are completely 
overwhelmed.
    Would you agree with that statement?
    Secretary McAleenan. I think that's an apt analogy. The 
Border Patrol agents and CBP officers in that analogy are faced 
with a crisis that's happened that they need to respond to with 
the resources they have on hand. And sometimes that can be 
challenging, it can be messy, but it is something they're doing 
with heart and soul and empathy.
    Mr. Green. No, I really appreciate that, and I can actually 
empathize significantly because I've delivered patients in--I 
delivered a baby in a parking lot because we just--we were so 
overwhelmed. I ran out, she was delivering. I mean, you do what 
you have to do when you're overwhelmed, and that's kind of 
where you are.
    I also wanted to talk a little bit about children. In 
emergency medicine we teach our doctors to be very, very 
cautious because a child can be sick and not look sick.
    Secretary McAleenan. Right.
    Mr. Green. You know, they tend to fall off of a cliff, is 
the way we say it. They look great, their vital signs are 
fantastic, and then they crash really fast.
    So expecting people, particularly people who aren't trained 
in emergency medicine--which took, by the way, you know, four 
years of undergrad, four years of med school, and three years 
of residency--expecting those individuals to recognize a child 
that's about to crash is really inappropriate and unfair, and I 
just wanted to share that thought, too.
    By the way, when the physician codes that patient and they 
die anyway and that doctor or that nursing team has tried 
really hard, it's not their fault, either. They're doing the 
best that they can.
    You wanted to say something. Go ahead.
    Secretary McAleenan. Both of those comments, Congressman, 
resonate for us, you know.
    And maybe if I could amend my answer to Congressman Khanna 
for a second. I think it would have been better to have more 
medical capability available in our border stations, in the 
higher trafficked areas, for our agents to access for the 
migrants as they came in. But we have been responding. We've 
increased it tenfold since January.
    Mr. Green. You mentioned four new facilities and two more 
coming on. Is that right?
    Secretary McAleenan. That's right, for the temporary 
facilities, absolutely.
    Mr. Green. Awesome. Fantastic.
    It's interesting. Flow through a pipe is Bernoulli's 
equation, for anybody who wants to know. And if you increase 
the radius of the pipe, it exponentially increases the flow 
through the pipe. So just a little bit of change gives you a 
lot more flow.
    Let me ask about these single adult folks that you don't 
have the beds for.
    Secretary McAleenan. Right.
    Mr. Green. If you had those beds, how would you shift 
resources? And would it give you better access elsewhere to 
take care of families and children?
    Secretary McAleenan. Sure. I mean, so Immigration and 
Customs Enforcement maintains facilities to house single 
adults. We requested thousands more beds than we got in the 
appropriations in Fiscal Year 2019. We requested $200 million 
worth of additional beds in the supplemental. We didn't get any 
of that funding.
    Mr. Green. Okay.
    Secretary McAleenan. So that's why we're experiencing that 
backup at the border, which is taking Border Patrol agent time 
away from either policing the border or caring for the more 
vulnerable populations crossing.
    Mr. Green. Yes. So if you had that diameter expansion, 
you'd be able to have more capacity and be able to shift 
resources to take care of those families and those children.
    I'd like to, Mr. Chairman, give my time to the ranking 
member. Thank you.
    Mr. Jordan. I thank the gentleman for yielding.
    Just one question. It would be better for them, refugee--
people seeking refugee status, to be able to apply in country 
rather than take a very dangerous journey all the way up to 
Texas and make those claims. Do you know who said that, Mr. 
Secretary?
    Secretary McAleenan. Other than me and some other members 
of the administration recently?
    Mr. Jordan. President Obama.
    Secretary McAleenan. Okay.
    Mr. Jordan. Yes. So it wasn't just the Trump 
administration. It wasn't just you. President Obama made that 
statement.
    And that seems to me the exact same thing Senator Graham is 
proposing in his legislation, which would be another thing we 
could do to help deal with the situation. Isn't that true?
    Secretary McAleenan. That is correct.
    Chairman Cummings. Thank you very much.
    Ms. Tlaib.
    Ms. Tlaib. Thank you so much, Mr. Chairman.
    I know it's really frustrating, I know, for my residents. 
President Obama is not the President anymore. I think we need 
to get over it and move on and know that we have a crisis and 
that we need to address it.
    And so, Mr. Secretary, thank you so much for coming before 
this. I think you're serving your agents by being here. And 
telling the truth as much as you can, provide more to us in 
actual information is going to help create the sense of urgency 
to help not only your agents, but the children and families at 
the border.
    Mr. Secretary, there's been a lot of discussion in this 
committee about rhetoric, this rhetoric, talking a lot, and 
kind of dismissing and discrediting many of my colleagues, 
including Congresswoman Escobar who is here with us, what we 
saw at the border.
    On June 28, 2019, you were asked about allegations of 
shocking conditions at Clint, in Clint, Texas. Quote, you said 
unsubstantiated allegations last week regarding a single border 
patrol facility in Clint, Texas, created a sensation.
    But in May--dismissing, I think, a report that came out, 
because in May 2019, before you made that statement, the 
independent Inspector General for DHS issued a report on a 
Border Patrol facility in El Paso.
    Mr. Secretary, were you aware of that report before you--of 
the poor conditions they talked about, the length of time, the 
overcrowding, the fact that many were wearing soiled clothing--
were you aware of that report before you said it was 
unsubstantiated.
    Secretary McAleenan. So I was offered the opportunity to 
explain what I was talking about earlier in the hearing. I can 
do it again.
    Ms. Tlaib. Yes. I'm just curious.
    Secretary McAleenan. Okay.
    Ms. Tlaib. Because when you say that, it's misleading to 
the American people.
    Secretary McAleenan. Yes. So I hope not, because one of the 
things I started in my opening statement to show all the times 
I've warned about the humanitarian crisis, the challenges, the 
overcrowding in our facilities, saying on June 10 that----
    Ms. Tlaib. I think for me, Mr. Secretary, you hear people 
saying that much of what we're saying is rhetoric, and when 
it's also backed up with you saying those terms. But I 
appreciate you trying to urge us and trying to identify that 
there has been a crisis.
    Secretary McAleenan. Yes. It was not rhetoric when I said 
that no American should be comfortable with children in a 
police station for days on end, that's not an appropriate 
setting for kids. That was not rhetoric. That was a 
description.
    Ms. Tlaib. But it contradicts in the way you said by using 
that word. I think be cautious. I'm telling you just as a mom. 
Just be cautious in the terms that you use because when you say 
unsubstantiated, when the IG office just gave you a report 
before you said that, it does mislead the American people that 
there isn't a serious issue there, that it's not backed, that 
there's no credibility.
    Secretary McAleenan. And just to be clear, though, I was 
talking about the Flores monitors' comments----
    Ms. Tlaib. Let's talk about those.
    Secretary McAleenan [continuing]. who did not go into the 
Clint station----
    Ms. Tlaib. Let's talk about Flores real quick.
    Secretary McAleenan [continuing]. but claimed that there 
were no toothbrushes available for children, that they didn't 
have water----
    Ms. Tlaib. I understand.
    Secretary McAleenan [continuing]. they didn't have access 
to showers, when they had all of those things, as I know you 
saw when you went to Clint.
    Ms. Tlaib. I understand, sir.
    So Flores was a case because it talks about the maximum you 
can keep a child is 20 days, as you know. And then it talks 
about things that you have to have, really important aid, like 
food and drinking water, appropriate food and drinking water, 
adequate temperature control, ventilation, contact with family 
members who were arrested with the minor, separation from 
unrelated adults whenever possible.
    It talks about toilets and sinks. It really goes into 
specifics. Medical assistance of minors in need of emergency 
services.
    What's wrong with Flores that everybody keeps saying they 
want to change Flores?
    Secretary McAleenan. Just a single provision. We don't want 
to----
    Ms. Tlaib. You want to keep kids longer.
    Secretary McAleenan. We don't want to change those 
provisions about conditions in our custody.
    Ms. Tlaib. You want to keep kids longer, Mr. Secretary.
    Secretary McAleenan. We want to codify those provisions to 
maintain the highest possible standards.
    Ms. Tlaib. No, you want to keep kids longer. It's been very 
clear from this administration you want to keep kids longer.
    Secretary McAleenan. We want to keep families together 
through an immigration proceeding that's fair and expeditious--
--
    Ms. Tlaib. By keeping kids longer.
    Secretary McAleenan [continuing]. in an appropriate 
setting. That can't be done in 20 days with due process.
    Ms. Tlaib. That's right. So just admit that, though. Tell 
people it's not--you want to keep the conditions, but you want 
to keep the kids longer.
    Secretary McAleenan. We want to keep very high standards, 
and we're willing to have a conversation about how high those 
standards should and can be. But we need to be able to finish 
immigration proceedings before people are released, otherwise 
we don't have an effective result.
    Ms. Tlaib. I understand.
    So, Mr. Secretary, I want to go through something else 
that's important to what I have witnessed and what I was told. 
So these are things that CBP agents, your agents on the ground, 
told me.
    Stop throwing money at this. One specific person.
    Another said: We weren't trained for this, to separate 
children, we aren't--I'm not--he said specifically, I'm not a 
social worker or a medical care worker.
    This is the most important one: The separation policy isn't 
working.
    What do you say to that?
    Secretary McAleenan. So I would say three things.
    Money is needed to mitigate the crisis. We're applying it 
effectively now. But I agree, we should change the authorizing 
law so that we wouldn't have the crisis in the first place, 
because throwing money at it is just going to continue to 
manage it.
    For training for challenging issues and trauma to our 
children, that's a hard thing to comprehensively provide for 
law enforcement. That's why we're trying to have people on 
contract in our facilities that have that background and can 
identify mental health trauma, can identify kids who are 
suicidal. We've done that hundreds of times since we put that 
in place last July at my direction as commissioner of CBP.
    And your third question?
    Ms. Tlaib. My third question was about the separation 
policy.
    Secretary McAleenan. There is no separation policy. There's 
a court order and an executive order that define the conditions 
for the welfare of the child, and they're limited conditions, 
they're extraordinarily rare. Out of 450,000 families this 
year, fewer than 900 children have been separated from the 
adult they crossed with who is a parent, and it's been because 
of a criminal history or a prosecution----
    Ms. Tlaib. Yes. And the definition of criminal history, we 
can talk about that.
    Secretary McAleenan [continuing]. not related to the 
immigration process, a medical issue, or an abuse or neglect 
concern with a child.
    Ms. Tlaib. Mr. Chairman, if I do have more time at the end, 
I would like to ask further questions for clarification.
    Chairman Cummings. Thank you very much.
    Ms. Ocasio-Cortez.
    Ms. Ocasio-Cortez. Thank you so much, Mr. Chair.
    Thank you, Secretary, for coming in and offering your 
testimony.
    Under the subpoenas that we issued to DHS, your office has 
produced to this committee data showing that child separations 
skyrocketed after your zero tolerance policy went into effect. 
More than 2,000 children were separated from their parents in 
the two months following your memo that Secretary Nielsen 
accepted, some for more than a year.
    In making these decisions around family separation and 
child separation, did you all consider the emotional and mental 
impact on CBP officers in forcing them to take children away 
from their mothers and fathers?
    Secretary McAleenan. So we absolutely consider the well-
being of our professionals who are strained with the crisis 
they're facing. They're strained with the stories they're 
hearing of the dangers of the journey, the abuse of women and 
girls----
    Ms. Ocasio-Cortez. And do you----
    Secretary McAleenan [continuing]. on the process of getting 
to the United States. We're absolutely worried about that.
    Ms. Ocasio-Cortez. Thank you. Reclaiming my time.
    And do you believe--but did you consider the dehumanizing 
effect on the officers specifically in child separation in 
forcing them to take children away from their parents?
    Secretary McAleenan. Enforcing the law often has emotional 
impacts for everybody involved, and that's something that they 
sign up for, but it's something we want to provide resilient 
services, mental health support for anyone who needs it.
    Ms. Ocasio-Cortez. Okay. And do you agree with the Federal 
court's decision that halted your child separation policy?
    Secretary McAleenan. I agree with the President's executive 
order on June 20 last year that ended the practice.
    Ms. Ocasio-Cortez. But not the Federal court's decision?
    Secretary McAleenan. Of course we follow the Federal court 
order assiduously.
    Ms. Ocasio-Cortez. There have been reports that President 
Trump and Stephen Miller wanted to restart mass child 
separations earlier this year, but top DHS officials, including 
Secretary Nielsen, told them that this would violate the court 
order. Is that true?
    Secretary McAleenan. So the President said that zero 
tolerance prosecutions of adults crossing with family units is 
not on the table at this time.
    Ms. Ocasio-Cortez. So you are saying that it's incorrect, 
the reports are incorrect saying that the President wanted to 
restart child separation?
    Secretary McAleenan. I'm referring to the President's 
public statements on this issue----
    Ms. Ocasio-Cortez. Okay. But privately, in your 
experience----
    Secretary McAleenan [continuing]. that this not on the 
table, not being considered.
    Ms. Ocasio-Cortez. And so in your experience, the answer is 
no, he did not consider restarting child separation?
    Secretary McAleenan. First of all, I'm not going to speak 
about conversations with the President that I've personally 
had. I'm not aware of other deliberations between other 
officials.
    Ms. Ocasio-Cortez. Mr. Secretary, there were reports that 
the President offered you a pardon for closing the border to 
asylum seekers. According to a CNN report, a senior 
administration official told CNN that President Trump told you 
he would grant you a pardon if you were sent to jail for having 
border agents block asylum seekers from entering the U.S. in 
defiance of U.S. law. Is that correct?
    Secretary McAleenan. Yes. I've testified about this, 
answered this question in the media. I've never been asked to 
do anything unlawful by the President or anyone else, nor would 
I.
    Ms. Ocasio-Cortez. Okay. Thank you.
    Mr. Secretary, are you aware of the ProPublica report 
indicating that there were about 10,000 potential current and 
former CBP officers in the violently racist and sexist Facebook 
group?
    Secretary McAleenan. I am aware of the ProPublica article, 
yes.
    Ms. Ocasio-Cortez. Did you see any of the posts in the 
report?
    Secretary McAleenan. I did.
    Ms. Ocasio-Cortez. Did you see the posts mocking migrant 
children's deaths?
    Secretary McAleenan. I did.
    Ms. Ocasio-Cortez. Did you see the posts planning physical 
harm to myself and Congresswoman Escobar?
    Secretary McAleenan. Yes, and I directed an investigation 
within minutes of reading the article.
    Ms. Ocasio-Cortez. Did you see the images of officers 
circulating photo-shopped images of my violent rape?
    Secretary McAleenan. Yes, I did.
    Ms. Ocasio-Cortez. Are those officers on the job today and 
responsible for the safety of migrant women and children?
    Secretary McAleenan. So there's an aggressive investigation 
on this issue proceeding. You've heard the Chief of the Border 
Patrol, the most senior female official in law enforcement 
across the entire country, say that these posts do not meet our 
standards of conduct, and they will be followed up 
aggressively. We've already----
    Ms. Ocasio-Cortez. But those officers----
    Secretary McAleenan. We've already put individuals on 
administrative duties. I don't know which ones correspond with 
which posts. And we've issued cease and desist orders to dozens 
more.
    Ms. Ocasio-Cortez. Okay.
    Do you think that the policy of child separation could have 
contributed to a dehumanizing culture within CBP that 
contributes and kind of spills over into other areas of 
conduct.
    Secretary McAleenan. We do not have a dehumanizing culture 
at CBP.
    Ms. Ocasio-Cortez. Okay.
    Secretary McAleenan. This is an agency that rescues 4,000 
people a year, that's absolutely committed to the well-being of 
everyone that they interact with. We don't believe there's a 
dehumanizing culture.
    Ms. Ocasio-Cortez. And, Mr. Secretary, so you don't think 
that having 10,000 officers in a violent racist group sharing 
rape memes of Members of Congress points to any concern of a 
dehumanized culture?
    Secretary McAleenan. Congresswoman, those posts are 
unacceptable. They're being investigated. But I don't think 
it's fair to apply them throughout the entire organization or 
that even the members of that group believed or supported those 
groups.
    Ms. Ocasio-Cortez. Mr. Secretary, just one last thing. How 
did 10,000 members join this group, including--including, I 
believe, the head of CBP? I'll double check. Including the CBP 
chief. How were they in this Facebook group without anybody 
knowing, without anyone in leadership knowing?
    Secretary McAleenan. Again, this is a subject of an ongoing 
investigation. If there was supervisory knowledge of 
unacceptable activities, that will also be considered and 
followed up on.
    Ms. Ocasio-Cortez. All right. Thank you very much.
    Chairman Cummings. Mr. Secretary, let me ask you this: You 
know, with these entries on social media that was just talked 
about, do you think people will make those kinds of statements, 
which obviously, I guess, reflect what they're feeling, should 
be on the force? I'm just curious.
    Secretary McAleenan. So it depends on the individual 
statement, the individual standard violated, but, yes, that's 
something that this investigation is looking at. And the 
appropriate discipline will be meted out up to and included 
removal.
    Chairman Cummings. Ladies and gentlemen, I ask unanimous 
consent that the gentlewoman, Ms. Escobar, from Texas, be 
authorized to participate in today's hearing.
    Without objection, Ms. Escobar, we'll yield you five 
minutes.
    Ms. Escobar. Mr. Chairman, thank you so much for the 
opportunity to be seated with this distinguished committee, of 
which I am not a member. But I am so grateful to all of you for 
your work and your commitment to creating a better government, 
a government we can be proud of.
    Mr. Secretary, thank you for being here. I've been sitting 
through some of your testimony just right behind you. And, you 
know, this whole exercise, I can tell you, on the House 
Judiciary Committee, this plays out as well. And it is very 
frustrating when I hear folks talk about how quick and easy the 
solutions can be when it is not that we don't want solutions, 
it is that we disagree on the end result.
    Some in Congress would like to see more hardline policies 
that essentially shuts our front door and ensures that this 
becomes someone else's problem, and others would like to truly 
address the challenge that we face as a country and as a 
hemisphere in a holistic, compassionate way.
    We've talked a lot about the crisis and the problems that 
have arisen, and there's absolutely no doubt that the 
increasing number of families arriving at our front door have 
caused a challenge. They've caused a challenge for law 
enforcement agents, many of whom I respect, but there are some 
very bad ones, who need to be rooted out.
    And the good ones are--have told me they are feeling more 
and more despondent because there are no consequences for the 
bad ones. There is no accountability for the bad ones. I'm 
worried about them. I worry about my community, which has 
shouldered the responsibility of being the good servant in a 
very dark time. And I worry, of course, for the migrants who 
have been dehumanized and who are looked at as a problem to be 
fixed instead of people to be helped.
    And I feel like so much of this--and I was privileged to 
testify before this committee last week. So much of this comes 
down to a choice in how we choose to approach a challenge. And 
I would tell you that El Paso, Texas, the community I'm so 
privileged to represent, has chosen to respond in a way where 
we create humanitarian standards for migrants as soon as 
they're released from custody. We literally, as a community, 
wrap our arms around people in need.
    We have a fraction, a miniscule fraction of the resources 
available to the Federal Government, and we have done far 
better. I feel that the matter of choice is one that is pretty 
transparent when we've chosen to separate children as a 
government, when we've chosen to block entry at our ports of 
entry for legal asylum seekers, and when we've chosen the 
Migrant Protection Protocol Program, which sends legal asylum 
seekers back into Mexico.
    So I apologize for the long preamble, but I just--I felt 
like I had to get that off my chest. I have a couple of 
questions for you, Mr. Secretary. I shared with you when you 
first were sworn in the day that you were sworn in that I felt 
you had a problem in ICE, and that one of the problems within 
ICE is that they are detaining people who could easily be 
paroled.
    I used as an example the nine Indians in custody in El Paso 
in our processing center who could have easily been paroled and 
should have been paroled and, after nearly being held in 
detention for--or being held in detention for nearly a year, 
decided to go on a hunger strike, had tubes forced down their 
nose so that they could be force fed. They were so depressed, 
and they could have been paroled. Ultimately, two were paroled. 
Seven were deported.
    I asked for you to look at what was happening in the ICE 
facilities and in those cases to do a deep dive. Have you done 
that deep dive?
    Secretary McAleenan. That deep dive is ongoing. And a 
number of the cases where we had very long detentions are being 
looked at. It's a very small percentage. I have data and I'll 
be getting back to you on the findings.
    Ms. Escobar. I appreciate it. I'm going to ask you--I have 
13 seconds. I'm just going to ask you if you will provide my 
office with an accounting of all ICE facilities for the last 
six months, the number of vacancies at each facility, the 
number of beds filled at each facility every day for the last 
six months.
    We keep hearing that there are no ICE beds, that you need 
ICE beds, that we're out of ICE beds, and yet, interestingly, 
the President can announce interior raids for which he would 
obviously need ICE beds. Meanwhile, single adults are held in 
deplorable conditions, abhorrent conditions, while I suspect 
there are lots of empty ICE beds waiting for the interior 
enforcement. So would love that information please. Would you 
get that to my office?
    Secretary McAleenan. We will follow through on an oversight 
request, absolutely.
    Ms. Escobar. Thank you so much.
    Thank you, Mr. Chairman. I yield back.
    Chairman Cummings. Thank you very much.
    To the committee members, I want to thank all of you for--I 
know this is getaway day, but this is an urgent matter. But I 
want to thank you all for being here. We're getting ready to 
shut down now, and we will now hear from our ranking member.
    Mr. Jordan. Mr. Secretary, do you want to change Flores so 
you can keep kids longer as Congresswoman Tlaib asserted just a 
few minutes ago?
    Secretary McAleenan. We want to complete an immigration 
proceeding and get a result as people arrive at the border so 
that we can have a system with integrity.
    Mr. Jordan. Yes. You don't want to keep kids longer. You 
want to keep families together until you can actually give them 
the due process which our law entitles them to receive and make 
a final determination, right?
    Secretary McAleenan. That's correct.
    Mr. Jordan. And that seems like commonsense to me. And, 
frankly, it was commonsense for the previous administration. 
That's how they wanted to do it. And now, when this 
administration wants to do it somehow oh, no, no, we can't go 
there because of this Flores decision.
    So, if we could--I think we've made this clear, I think 
you've made this clear this hearing, if you change that, it has 
immediate impact, it keeps families together, it gives these 
families trying to get into our country their due process, 
their completion----
    Ms. Tlaib. Ranking Member.
    Mr. Jordan [continuing]. and it gets to--a judge can make a 
final decision and would make everything better for everyone 
concerned, for the Congress, for the Agency, and for the people 
who made this long trek and came here to this country, right?
    Secretary McAleenan. That's correct.
    Mr. Jordan. That's what you want to have happen. That's all 
you want to have happen. But we've heard from the other side, 
they're not going to do it.
    Ms. Tlaib. Sir.
    Mr. Jordan. They're not going to do it. And that's the part 
that I--Mr. Meadows said earlier, we're willing to work with 
anyone to fix that one thing which would be the most immediate 
thing we could do to help with the situation on the border.
    Republicans are ready. You're ready. My guess is, these 
families, like that picture, that little girl and her parents, 
they're probably ready for that too, but they won't do it. 
Let's just do that. I hope today, if one thing happens from 
this committee--we've got a lot of other things that need to 
happen on the border. But if one thing happens, let's fix that.
    Let's fix that and stop all the stuff we've heard about and 
do what you know with your 20 years' experience in this--more 
experience than anyone in this room what you know has to 
happen, what you've came here and said, I bet at least eight, 
10 times what has to happen, but they've said they won't do it.
    I hope they change their mind. And I hope they'll work with 
us, and I hope we'll get that done. Thank you for your service, 
for the guys who work for you, the folks who work for you, 
thank you for their service and for being here today. I yield 
back.
    Chairman Cummings. Ms. Tlaib, I'm going to give you--since 
the ranking member----
    Ms. Tlaib. Yes. Mr. Secretary----
    Chairman Cummings. Whoa, whoa, whoa. I'm not finished.
    Ms. Tlaib. Oh, I'm so sorry, sir.
    Chairman Cummings. I'll give you one minute and 30 seconds.
    Ms. Tlaib. Yes, sir.
    I want to thank the ranking member. One of the key things 
is I don't disagree that we have to fix some sort of policy, 
but keeping the kids longer in various kids is my issue, right, 
the fact that it is a broken system. I believe that CBP agent--
I really truly do--and that throwing money at this, continuing 
this isn't working.
    And, Mr. Secretary, please share with me and the ranking 
member, in the 1980's, we had more people come to our border. 
Detention was very rarely used. Can we look at those policies--
no, really. I can share the information with you if you don't 
have it.
    But I don't want to leave folks thinking that I wouldn't 
want to obviously support some sort of resolution to this 
that's humane and that gives our agents on the frontline more 
time, more information on training, those things. However, I 
think we should be very cautious when we say let's just keep 
them longer, like that's supposed to be some sort of fix. And 
that's my issue.
    And I don't want people to mischaracterize Flores. When you 
look at Flores, it's all of these conditions. And one of the 
key things about that case was we kept her longer, and that was 
inhumane in itself, Mr. Secretary. And that's one thing that my 
colleagues on the other side won't understand, detaining people 
in itself for a very long time, even if they're families, is 
inhumane and it's harmful.
    And, Mr. Chairman, I'll leave it with this: What did you 
say? We leave them with the memory. So you can't keep them 
longer. That's not going to fix it.
    Chairman Cummings. Thank you very much.
    And I want to thank all--everybody for a--this is a 
difficult conversation because we are dealing with difficult 
issues. And I want to thank you, Mr. Secretary. We really 
appreciate you being here. I know you had a hard stop at 1:30 
and now we're approaching 20 of three.
    Let me just say that, as I listen to all of this, I just 
want to--and the other day, I said this, I want us to make sure 
we concentrate on in the meantime. In other words, people may 
differ about what they have observed, but we do have the IG 
reports, and we did have the IGs come in and testify before us. 
And there had been some things that today, to be very frank 
with you, you seem to not be in agreement with the IG.
    Secretary McAleenan. No.
    Chairman Cummings. I'm sorry. Did you say something?
    Secretary McAleenan. Actually, I accept the conclusions of 
the IG reports, and, frankly, I think my own comments were at 
least as strident and specific on the overcrowding and the 
challenges it was creating in our facilities.
    Chairman Cummings. And that's the point. I want us to try 
the address the overcrowding. But I am convinced that a lot of 
the policies, the zero-tolerance policy has led in large part 
to what's going on.
    Let me be very clear. I get tired of people saying that 
folks up here on our side of the aisle are beating up on the 
Border Patrol and beating up on others. There is nobody that I 
know of probably in this Congress that fights harder for 
Federal employees, period, because I know that they're often 
unseen, unnoticed, unappreciated, and un-applauded. I get that.
    At the same time, I want us to keep in mind that we are 
dealing with children in many instances. We are dealing with 
people who are trying to simply live a better life, trying to 
live a better life. And when I think about the idea--it seems--
a policy that basically says, ``Well, I got over the ladder 
into the country, and now I kind of pull up the ladder so 
nobody comes; we don't have enough room''--and I'm not saying 
that you're saying that--that is not the America I know, and 
that is not the America that I want for my children and for 
generations yet unborn.
    But most significantly too, I think we need to keep in mind 
what I will say over and over again until I die: The deeds you 
do to children may very well come back to haunt us, but it will 
definitely haunt them. And I think we need to treat these 
children and ask our--when we're dealing with them, ask them, 
would we have that for our own?
    They are human beings, and that same little child may be 
like the persons who saved my life at Johns Hopkins Hospital. 
Most of the people that saved my life were--well, half of them 
were first generation. And that's the beauty of America. Our 
diversity is not our problem; it is our promise.
    And, with that, I'd like to thank our witness for 
testifying today. Without objection, all members will have five 
legislative days within which to submit additional written 
questions for the witness, and you must submit them to the 
chair, and which will be forwarded to the witness for his 
response.
    And I would say to you, Mr. Secretary, you made a lot of 
commitments here today, and we want to follow-up. We're going 
to follow-up on all of them because time is of the essence. And 
so I ask that you please respond to those inquiries as rapidly 
as possible, okay.
    Ladies and gentlemen, we are adjourned.
    [Whereupon, at 2:46 p.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
